<html>
<title> - EXAMINING THE STATE OF TRANSIT SECURITY</title>
<body><pre>[Senate Hearing 110-779]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 110-779


                EXAMINING THE STATE OF TRANSIT SECURITY

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                   BANKING,HOUSING,AND URBAN AFFAIRS
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                                   ON

                EXAMINING THE STATE OF TRANSIT SECURITY

                               __________

                            JANUARY 18, 2007

                               __________

  Printed for the use of the Committee on Banking, Housing, and Urban 
                                Affairs


      Available at: http: //www.access.gpo.gov /congress /senate/
                            senate05sh.html






                   U.S. GOVERNMENT PRINTING OFFICE
48-325 PDF                  WASHINGTON : 2009
----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, 
Washington, DC 20402-0001








            COMMITTEE ON BANKING, HOUSING, AND URBAN AFFAIRS

               CHRISTOPHER J. DODD, Connecticut, Chairman

TIM JOHNSON, South Dakota            RICHARD C. SHELBY, Alabama
JACK REED, Rhode Island              ROBERT F. BENNETT, Utah
CHARLES E. SCHUMER, New York         WAYNE ALLARD, Colorado
EVAN BAYH, Indiana                   MICHAEL B. ENZI, Wyoming
THOMAS R. CARPER, Delaware           CHUCK HAGEL, Nebraska
ROBERT MENENDEZ, New Jersey          JIM BUNNING, Kentucky
DANIEL K. AKAKA, Hawaii              MIKE CRAPO, Idaho
SHERROD BROWN, Ohio                  JOHN E. SUNUNU, New Hampshire
ROBERT P. CASEY, Pennsylvania        ELIZABETH DOLE, North Carolina
JON TESTER, Montana                  MEL MARTINEZ, Florida

                      Shawn Maher, Staff Director
        William D. Duhnke, Republican Staff Director and Counsel
                Aaron Klein, Democratic Chief Economist
     Sherry E. Little, Republican Senior Professional Staff Member
   Joseph R. Kolinski, Chief Clerk and Computer Systems Administrator
                         George Whittle, Editor

                                  (ii)







                            C O N T E N T S

                              ----------                              

                       THURSDAY, JANUARY 18, 2007

                                                                   Page

Opening statement of Chairman Dodd...............................     1

Opening statements, comments, or prepared statements of:
    Senator Shelby...............................................     3
    Senator Bennett..............................................     7
    Senator Reed.................................................     7
    Senator Allard...............................................     8
        Prepared statement.......................................    31

                               WITNESSES

Hon. Dannel P. Malloy, Mayor, Stamford, CT, and Trustee, The U.S. 
  Conference of Mayors...........................................    10
    Prepared statement...........................................    31
William W. Millar, President, American Public Transportation 
  Association....................................................    11
    Prepared statement...........................................    45
Warren S. George, International President, Amalgamated Transit 
  Union..........................................................    13
    Prepared statement...........................................    49
Aurelio Rojo Garrido, Operational Director, Metro Madrid, and 
  Secretary General, Association of Latin American Metros and 
  Subways (ALAMYS)...............................................    15
    Prepared statement...........................................    53
Tim O'Toole, Managing Director, London Underground, Transport for 
  London, England................................................    17
    Prepared statement...........................................    53

                                 (iii)

 
                EXAMINING THE STATE OF TRANSIT SECURITY

                              ----------                              


                       THURSDAY, JANUARY 18, 2007

                                       U.S. Senate,
          Committee on Banking, Housing, and Urban Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:02 a.m., in 
room SD-538, Dirksen Senate Office Building, Senator 
Christopher J. Dodd (Chairman of the Committee) presiding.

               OPENING STATEMENT OF CHAIRMAN DODD

    Chairman Dodd. The Committee will come to order. Welcome to 
the Banking Committee. I want to thank all of you for being 
here at the inaugural meeting of the Committee on Banking, 
Housing, and Urban Affairs for the 110th Congress. I am very 
pleased this morning to address this Committee as Chairman. It 
has been a long time. I must say I was beginning to wonder if 
this day would ever arrive. My wife reminded me the other day 
that at age 62 I am the average age of a U.S. Senator. That is 
the good news.
    Senator Shelby. Younger.
    Chairman Dodd. Younger. Thank you.
    [Laughter.]
    Chairman Dodd. But I have been on this Committee for 
awhile. When I first arrived in the U.S. Senate back in January 
1981, I was assigned to this Committee and sat in the chair 
where Bob Casey is sitting today. And it has taken a quarter of 
a century to move along these chairs here one at a time. So I 
am delighted to be here this morning in this capacity.
    Of the three major committees on which I serve, I had the 
pleasure to serve behind Senator Kennedy on the Health, 
Education, Labor, and Pensions Committee. I still sit in that 
chair next to him. Senator Biden on the Foreign Relations 
Committee, I still sit next to Senator Biden after 25 years, 
and I sat behind Senator Sarbanes as well. Little did I know 
when I joined the Senate a quarter of a century ago that each 
of these men would have the Constitution of a bull. And so they 
have been here for many, many years and made me wait a quarter 
of a century to assume this Committee chairmanship.
    Let me say a few words, if I can, of a general nature. Then 
we will proceed to the business at hand this morning.
    First I want to acknowledge my friend and colleague from 
Alabama, former Chairman Dick Shelby, with whom I have a 
longstanding and very sound and wonderful relationship. A 
couple of days after the November elections, Senator Shelby and 
I had breakfast together. At that point we still did not know 
for certain which of our two parties would hold a majority in 
the U.S. Senate. But we both agreed that whatever the outcome, 
we would work together as we have over the years to find common 
ground on this Committee, to advance issues of mutual concern.
    That was not a difficult agreement to reach, I would tell 
you. Senator Shelby's leadership of this Committee has been 
marked, in my opinion, first by a commitment to address the 
critical issues of the day, which he did in a stellar fashion; 
and, second, to work in a bipartisan fashion. Some people speak 
that language rather readily. Dick Shelby has demonstrated over 
and over and over again his understanding of how important 
these relationships are in terms of advancing the issues the 
American people want us to confront.
    It is my intention and hope that those two characteristics 
will continue to be identified with the leadership of this 
Committee. As I have said previously, it is my intention to 
focus this Committee's attention on two fundamental objectives: 
first, strengthening our Nation's ability to keep our people 
and businesses as secure as possible against the risk of attack 
from those who wish us ill; and, second, expanding prosperity 
for businesses and consumers throughout our Nation.
    I am deeply troubled by what has happened in our economy 
over the past several years. Men and women are working much 
harder. They are paying more for the essentials of a 
financially stable and secure life. And many are actually 
falling behind, as many of us know. Due to no fault of their 
own, these people have become trapped in a downward spiral of 
debt from which they have little chance of escape. Others are 
victims of unscrupulous lending practices that have stripped 
them of their equity and sometimes their entire homes.
    In addition, vast numbers of small and medium-sized 
businesses struggle to compete in a global marketplace, where 
our national leadership is doing little, if anything, to ensure 
that the competitive playing field is as level as possible.
    Some of our fellow citizens are doing very well in this 
economy, but most are struggling, struggling very hard every 
single day. It is my intention--and I hope the Committee's 
intention--to make their cause the work of this Committee. On 
that, I am confident that we can find common ground as Senators 
and as Americans.
    In addition, I would like to pay a tribute to our former 
colleague, Paul Sarbanes. Paul is an extraordinary public 
servant. He certainly set a very high standard for me and 
others by his thoughtfulness and dedication to the public 
interest of our Nation. And just as I am committed to carrying 
on the qualities of leadership shown by Senator Shelby, so, 
too, am I committed to carrying forward many of the qualities 
of leadership that characterized the service of Paul Sarbanes 
of Maryland.
    I also want to acknowledge one of our colleagues who is not 
with us here today, our very good friend and the person I have 
sat next to on this Committee for many years, Tim Johnson, who 
has been a wonderful Member of the U.S. Senate. I am sure that 
I speak for everyone, not only on this side of the dais but 
also in this room and elsewhere, certainly the people of his 
State, in wishing him continued progress. And it has been 
reported to us just in the last 24 hours how much better Tim is 
doing every single day, involved in a good, strong rehab 
program, and all of us wish him and his family well. And he 
will return to his service in the Congress as soon as possible. 
I look forward to working with him throughout this Congress.
    With that, let me recognize my friend and Ranking Member, 
Senator Shelby, for any opening statement he wants to make, and 
I want to thank him. Someone came up when I walked in the room 
and they said, ``Look at this room. You have got this redone 
room. You Democrats are already spending money up here.'' I 
quickly pointed out that this was my good friend, this very 
conservative Republican from Alabama, who spent all this money 
to get this nice room done.
    [Laughter.]
    Chairman Dodd. And I thank him for his leadership and for 
turning this Committee room into a modern Committee room where 
we have the advantages of the technology that will allow us to 
have very good hearings.
    I want to point out, my colleagues may have noted that we 
have not switched sides here. In the past, when you became the 
majority, the majority would move over to this side of the 
table, because in the past too often cameras would gather at 
one side or the other. I am proud to say to you here that there 
is no longer any advantage. You all have an equal opportunity 
to make a fool of yourself with a frontal picture here because 
of the cameras now stationed in a way here that they are not 
going to be picking up one side of the room or the other. But 
again, Dick, I thank you immensely for your leadership and the 
floor is yours.

              OPENING STATEMENT OF SENATOR SHELBY

    Senator Shelby. Thank you, Senator Dodd. Reluctantly, I 
will--not really--congratulate you as the Chairman of the 
Banking Committee.
    [Laughter.]
    Senator Shelby. We kid and talk about that. We know 
elections have consequences. We hope you will not be Chairman 
too long. You never know.
    [Laughter.]
    Senator Shelby. But, in that regard, we are going to 
continue to work with you----
    Senator Bennett. Is that a prediction about the outcome of 
the Presidential race?
    [Laughter.]
    Senator Shelby. It could be, but we do not know, either 
way.
    Chairman Dodd. You could call me ``Mr. Secretary.''
    [Laughter.]
    Senator Shelby. We could, but we are going to hold all that 
back for a while and see what happens. But I do want to 
sincerely congratulate you. You have worked on this Committee 
for many, many years. We have both been here through the thrift 
crisis and everything that goes with it. But today I want to 
thank you for holding this hearing.
    Transit security has been the focus of the Committee's 
attention for a number of years here. Since 2001, right here we 
have held a number of informative hearings. We have requested 
and received a GAO report on the matter, and we have twice 
marked up and reported comprehensive transit security 
legislation.
    Many Members of this Committee on both sides of the aisle 
have focused a great deal on the issues surrounding transit 
security. Former Senator Sarbanes and Senators Allard and Reed 
have been very active on these issues. They were instrumental 
in making transit security a priority in the Committee and 
worked diligently to ensure passage on the Senate floor, and I 
want to thank them again for their efforts.
    Past attacks on the transit system of our friends and 
allies have clearly established the nature and magnitude of the 
threat to our own transit infrastructure. Throughout our 
country, 14 million people board trains and buses as a part of 
their daily routine. I have long believed that we can and we 
should be doing more to protect them. There are a number of 
steps that we can take to increase security while preserving 
the accessibility that we have come to expect in this country.
    We need more bomb-sniffing dogs, more closed-caption 
televisions, more public address systems, and more detection 
equipment. Yes, we need the capability to share information 
about potential threats on a real-time basis, and we need 
additional operational funds to provide training for transit 
workers. In the past, the funds provided by the Department of 
Homeland Security have been woefully inadequate, barely 
scratching the surface of the needs. The Banking Committee's 
transit security bill would have authorized $3.5 billion that 
could go directly to transit agencies responsible for systems 
deemed to be at risk for potential terrorist attacks.
    I applaud Chairman Dodd here today for his early focus on 
this issue, and I will support his effort to revisit the 
Committee's legislation.
    We have a diverse panel of witnesses before us today. In 
addition to hearing from industry, a local mayor, and the 
workforce, we are pleased to welcome representatives from both 
Madrid and London. They, of course, can speak firsthand about 
the terrorist attacks in their own countries, as well as share 
the steps they have taken to prevent future attacks.
    I look forward to hearing today's witnesses, and I thank 
you again for calling this hearing so soon.
    Chairman Dodd. Thank you very much, Senator Shelby. I 
should have said at the outset but let me do it here, if I can, 
I want to--Senator Dan Akaka is with us here and back on the 
Committee, and I wanted to recognize Dan, who has served on 
this Committee before and cares deeply about transportation, 
financial education, and other issues. We have missed you on 
the Committee, Senator Akaka, and we welcome you back to this 
Committee and thank you for your service to the Banking 
Committee.
    Senator Sherrod Brown joins us as well, after having served 
six terms in the House of Representatives, and previously as 
Ohio Secretary of State. Before politics, he was a professor at 
Ohio State University. He is not yet here this morning, but I 
am sure he is coming over. He spent 4 years in Connecticut, I 
might point out, at one of our colleges and universities and at 
Yale, and I am delighted he is a Member of the Committee.
    Bob Casey I have already referenced in that last chair over 
there, Bob, we are thrilled to have you here. You bring some 
wonderful experience. No stranger whatsoever to financial 
services questions, and we are going to look to you to make a 
valuable contribution to the work of this Committee. He served 
as the Pennsylvania Auditor General, Pennsylvania State 
Treasurer, an attorney, went to law school here in DC, and so 
we welcome you to the Committee and look forward to your 
service.
    Jon Tester was President of the Montana State Senate, and 
previously he was on the Big Sky School Board, in addition to 
running a farm and a custom butcher shop. We have got some 
good, practical experience from Jon Tester, who was here at the 
outset of the hearing and I know has other commitments this 
morning.
    So I thank our new members. Dan, we thank you for coming 
back, and the Members who I have served with on this Committee, 
I appreciate your presence here.
    Let me, if I can, just make a couple of quick opening 
comments about the subject matter here and welcome our 
witnesses this morning, and then we will get right to the 
testimony.
    As Senator Shelby has pointed out, the Committee examines 
this morning the state of transit security in the United 
States. We have chosen this topic as the subject of the 
Committee's first hearing for one overriding reason: because 
the safety of more than 14 million Americans, as Senator Shelby 
pointed out, and the prosperity of our Nation is at stake. It 
is no secret that worldwide terrorists have favored public 
transit as a target. I would draw your attention, by the way--
my staff gave me a few minutes ago a story this morning in 
Moscow where Russian authorities are sending more police as we 
gather here into the streets of Moscow. They have ordered the 
shutting off of all cell phones in their subway system this 
morning on a very high alert. They are worried about their 
transit systems. They have been hit by terrorist attacks and so 
forth. But, again, as we gather here, once again we are finding 
a major city around the world is being faced with the 
challenges that Madrid and London and others have been through.
    As I said, it is no secret that worldwide terrorists have 
found public transit as a very attractive target. Transit has 
been the single most frequent target of terrorism, in fact. In 
the decade leading up to 2001, 42 percent of terrorist attacks 
worldwide targeted rail systems or buses, according to the 
Brookings Institution. In 2005, they attacked London's rail 
system and bus system, which we will be hearing about, killing 
52 riders and injuring almost 700 people that day in what has 
been called ``London's bloodiest peacetime attack.''
    In 2004, the attack on Madrid's Metro system took the lives 
of 192 people and 1,500 people were injured, and Mr. Garrido 
from Spain will be talking to us about that experience and what 
they have gone through.
    Previous attacks in Moscow, what I mentioned here today, in 
Seoul, Korea, and Tokyo, not to mention many Israeli bombings 
that we have heard about with far too great a frequency, 
demonstrate that this is, in fact, a global threat. Anyone who 
believes that America's transit system is somehow immune from 
attack need only to consider the experiences that other nations 
are having and ask why would anyone think that we would be 
immune from this.
    Transit is frequently targeted because it is tremendously 
important to our Nation's economy. Securing our transit systems 
and our transportation systems generally is a difficult 
challenge under any circumstances. Every act to increase 
security potentially limits the mobility that our citizens 
cherish and want. Yet the difficulty of the task must not 
thwart us from completing it. We must make certain that our 
Nation's leaders are doing everything possible to adequately 
address the threats posed by terrorism on our public transit 
systems.
    Senator Shelby has been a leader in this effort over the 
years, and, again, I want to recognize and thank him for his 
excellent work, along with Senator Sarbanes and others, in 
making sure that the Banking Committee has been at the 
forefront frequently in attempts to enhance our Nation's 
security systems and our transit systems. This issue is a clear 
example, in my view, of how we can work together on this 
Committee and in this Congress to achieve the two fundamental 
objectives of this Committee about which I spoke a moment ago: 
security and prosperity.
    I was proud to work with Senator Shelby, former Senator 
Sarbanes, Senator Jack Reed, and Senator Allard, who is with us 
today, and many others, including Senator Schumer, when we 
crafted transit security legislation, which passed this 
Committee unanimously in both the previous two Congresses. We 
have been working on this issue in a bipartisan manner for the 
last two Congresses and have made considerable progress. Twice 
we have passed our bill to the full Senate, and once we 
received a majority vote--53, I would point out--on the Senate 
floor to fully fund the legislation authored by Senator Shelby 
and the others I have mentioned. It is my hope that we can 
continue to work together and finally enact this legislation, 
working with our colleagues in the House of Representatives and 
additional committees here in the U.S. Senate.
    While this Committee has worked to meet its obligation to 
the millions of transit riders, the same cannot be said about 
the Congress as a whole or the current administration, I would 
point out. The need is clear for enhanced transit security. 
Since the terrorist attacks of September 11, 2001, the Federal 
Government has invested nearly $24 billion in aviation 
security. None of us are going to fault that investment. But I 
would point out that protecting the 1.8 million people who fly 
on average every day, as important as that is, is not investing 
as much as we should in transit security. In transit security, 
compared to $24 billion, we have invested $386 million in 
transit security to protect 14 million people who, every day, 
ride on non-air transit systems around the country--1.8 
million, $24 billion; $386 million, 14 million. The math is not 
complicated. We need to be doing a far better job at this, 
particularly when you are given the statistics I have cited to 
you earlier.
    Put to you another way, since 2001, our Nation has spent 
over $7.50 per passenger on aviation security but less than 1 
penny per passenger on transit security in this country. I am 
not suggesting at all that we ought to be investing equally, 
but clearly this is not an appropriate balance. I do not think 
anyone would agree with that. The stakes to our Nation are 
simply far too high, as, again, the news out of Moscow points 
out this morning, to ignore the urgent call by Governors, 
mayors, fire and police chiefs, and others for greater national 
leadership in this area.
    If we are truly serious--truly serious--about keeping our 
Nation safe from the risks of terrorism, and if we are 
committed to economic prosperity, then I believe it is 
imperative that we act to strengthen America's transit 
networks.
    With that, I want to thank again the Members of the 
Committee here today in recognizing that this first hearing is 
one that does really address the two ambitions I have for this 
Committee, that is, prosperity and heightened security for our 
country.
    With that, Senator Shelby, I do not know if you have any 
additional opening comments you want to make. If not, then let 
me turn to our witnesses, if I can here, and then we will go to 
our Members. I want to ask our witnesses--well, do you want to 
make any opening comments? I will ask my colleagues if they 
have any opening statements they want to make.

              OPENING STATEMENT OF SENATOR BENNETT

    Senator Bennett. No, thank you, Mr. Chairman. I do want to 
publicly congratulate you on your elevation to this position 
and tell you how much we look forward to working with you.
    I have ridden transit systems in many countries around the 
world and recognize how vulnerable they are, so as a cosponsor 
of the original bill, I am grateful to you for holding the 
hearings.
    Chairman Dodd. Thank you.
    Senator Reed.

               OPENING STATEMENT OF SENATOR REED

    Senator Reed. Well, thank you very much, Mr. Chairman, and 
let me congratulate you for your new position and commend 
Senator Shelby for the great leadership he has shown. As he 
mentioned, he and with many of our colleagues, particularly 
Senator Allard, have been working very diligently on this issue 
of transit security, and I see many of the panelists we have 
had before, and thank you for joining us today.
    Senator Dodd mentioned that there is a fear in Moscow, but 
just this morning CNN is reporting that the Los Angeles Joint 
Terrorism Task Force is investigating a suspicious spill in 
their subway system of mercury. An unidentified individual 
dropped some mercury, and from a surveillance camera, it could 
be deliberate or accidental. But it also could be a test of 
their responsiveness. And, frankly, it took 8 hours for the 
authorities to respond.
    So transit security is not a Moscow problem or a Madrid 
problem. It is a worldwide problem, particularly in the United 
States, and we have to be cognizant of that. And I think this 
Committee has acted under the leadership of Senator Shelby and 
Senator Sarbanes appropriately, but we have yet to bridge the 
gap. It is a $6 billion gap between the transit security needs 
in this country and the resources available. And as Senator 
Dodd has pointed out, we have done a lot to secure aviation. We 
have done very little, not enough to secure transit in this 
country. And as our friends from Madrid and from London will 
point out, this is one of the major vulnerabilities in any 
industrialized country in the world.
    I look forward to working with Chairman Dodd, who is my 
leader in so many things, in a bipartisan way to try to address 
this issue.
    Thank you, Mr. Chairman.
    Chairman Dodd. Thanks very much.
    Senator Allard.

              OPENING STATEMENT OF SENATOR ALLARD

    Senator Allard. Well, thank you, Mr. Chairman. I want to 
congratulate you on your position here on the Committee, and I 
look forward to working with you. I always felt that you were 
willing to work in a bipartisan way, and I always enjoyed 
having an opportunity to work with you whenever that has 
presented itself.
    As you mentioned, I have a real interest in mass transit 
systems because of working with Senator Reed. I think we have 
been able to work in a bipartisan way on many pieces of 
legislation, and we will continue to work on those efforts. So 
I think it is entirely appropriate that you deal with mass 
transit system security.
    You will have to forgive me, Mr. Chairman, that I have to 
mention that in Colorado we have a test facility for trains 
that is unprecedented in the world, and we have been working to 
get that as part of the Security Consortium for Mass Transit, 
and we haven't been successful. It is not anything that is in 
this Committee. With high-speed trains and everything else, it 
is important to have an open enough and isolated area where you 
can actually test explosives and these kinds of things, which I 
think is an important part of developing public transportation 
systems that are secure. You have to have somewhere you can 
test them out, and we have that facility in Colorado and are 
working on it.
    So I am very happy that you are emphasizing this as one of 
your major priorities. I think our Nation needs that 
leadership, and I am glad to see the Banking Committee step 
forward on that.
    I ask that my full statement be entered into the record.
    Chairman Dodd. Thanks very much, Senator.
    Let me just do some housekeeping measures here. I have read 
all of your testimony, and it is very excellent testimony. I 
would ask you if you can to try and keep your testimony down to 
about 5 to 7 minutes or so. Your full testimony will be part of 
the record, without any question whatsoever. But in order to 
get to the question period here, which is also very valuable 
for Members, I would ask you to keep that in mind. All of the 
opening statements that my colleagues have here will be 
included in the record as well, fuller statements they may have 
on the issue before us here this morning. And I am again very 
grateful to our witnesses.
    I am going to continue the practice that has been the 
practice of this Committee for some time, and that is to 
recognize Members in the order in which they arrive in the 
Committee, with the exception of the Ranking Member, which has 
been the custom as well here.
    Senator Shelby. Then I had better be on time.
    [Laughter.]
    Chairman Dodd. That is all right. Nonetheless, I think it 
is a good practice you have. It is frustrating at times, but I 
just want to announce that ahead of time that we will be 
continuing the very system that Senator Shelby and, I think, 
Senator Sarbanes and others have followed over the years.
    Let me introduce our panel of witnesses, and we will get 
right to it here this morning. Again, I thank them for being 
with us.
    I am delighted to introduce as our first witness--and I 
make no bones about it--a very good friend of mine. He is the 
mayor of Stamford, CT, and we have known each other a long, 
long time. He has been an excellent, excellent mayor in 
Connecticut. He has been the mayor of Stamford the last 12 
years and has done a fabulous job. He works on many issues, as 
all mayors do across our country, but transit issues have been 
sort of a hallmark of Dan Malloy's service. He lives in and 
represents a city in that congested corner of our State not far 
from New York that many are familiar with, the I-95 corridor in 
there, and mass transit systems, Metro North, Amtrak, and the 
like. So he really has to struggle and grapple with these 
issues all the time, and I am very, very grateful to Dan for 
coming here this morning to talk about this issue on behalf of 
not only the city of Stamford itself but also the Conference of 
Mayors that will be gathering next week here in the city and 
have suggested some ideas on what we might do in this area.
    Bill Millar, the President of American Public 
Transportation Association, has testified before this Committee 
previously on transit security and is recognized as an expert 
in these areas, and we thank you very, very much for being with 
us.
    I want to welcome Warren George, again, who is no stranger 
to these issues, the International President of the Amalgamated 
Transit Union, founded in 1892, has a longstanding involvement 
with these important questions. ATU is the largest transit 
union, representing 180,000 members in 270 locals, spread 
across 46 States. He brings obviously a tremendous amount of 
information and talent to this discussion.
    We are very pleased to welcome Aurelio Rojo Garrido. I 
don't get to do this very often, so bienvenido a nuestro 
comite. Yo hablo Espanol fracamento simplacer. That is pretty 
good. I got to do that once.
    [Laughter.]
    Chairman Dodd. From my days as a Peace Corps volunteer. I 
am not going to get a break here on this Committee no matter 
what I do here along the way. But thank you for coming and 
joining us here this morning. The Secretary General of the 
Association of Latin American Metros and Subways and the 
Operational Director of Madrid's Metro system. We are very 
honored to have you at the Committee.
    Last, we are joined by Mr. Tim O'Toole, who is the Managing 
Director of the Transport for London, which operates London's 
subway and bus systems, the oldest subway system in the world. 
Again, we are very grateful to both of you for being a part of 
this hearing. London and Madrid are Europe's two largest 
transit systems and have been the targets, as I pointed out 
earlier, of terrorist attacks over the past 3 years. I hope 
that we can learn from your tragedy, and we appreciate your 
coming a great distance to be before this Committee today, and 
all of us are deeply grateful to both of you for making the 
effort.
    Mayor Malloy, the floor is yours. We welcome your testimony 
and thank you for being here.

 STATEMENT OF HON. DANNEL P. MALLOY, MAYOR, STAMFORD, CT, AND 
                TRUSTEE, THE U.S. CONFERENCE OF
                             MAYORS

    Mr. Malloy. Good morning, Senator Dodd. As a fellow son of 
Connecticut, I am particularly proud to be here this morning as 
you ascend to the chairmanship of this Committee, and thank you 
for the opportunity to be with you.
    I would like to single out Ranking Member Shelby and thank 
him for all of his work with America's mayors on behalf of 
transit systems and transit security. We greatly appreciate 
your friendship.
    I am Dannel Malloy. I am the mayor of the city of Stamford, 
CT, and a trustee of the U.S. Conference of Mayors, and I want 
to certainly thank all of the members for inviting me to 
participate.
    On behalf of the U.S. Conference of Mayors, we appreciate 
your interest in public transportation security and look 
forward to working with you as you develop legislation to 
safeguard America's bus, rail, and ferry systems.
    One month after September 11th, the Conference of Mayors 
called an emergency homeland security summit in Washington, DC, 
and drafted a sweeping ``National Action Plan for Safety and 
Security in America's Cities.'' The National Action Plan was 
updated in October of 2005 with special emphasis on transit 
security following the attacks in London's Underground Tube 
system, aboard London's transit buses, and certainly the Madrid 
strike as well.
    In addition, my comments originate from the conference's 
``Strong Cities, Strong Families for a Strong America 10-Point 
Plan'' which will be presented next week at the U.S. Conference 
of Mayors 75th Winter Meeting.
    We must strengthen our partnership with the Federal 
Government to make sure that our first preventers and first 
responders have the resources and training they need to succeed 
and that all necessary Federal support is ready in the event of 
an event that might attack us.
    As the American Public Transportation Association's survey 
identified, Congress has allocated--and as Senator Dodd 
mentioned--only $386 million to transit security through fiscal 
year 2006, yet transit agencies have identified in excess of $6 
billion in transit security investment needs.
    For Stamford, securing these wide open and vulnerable 
systems is a priority--a priority on which I spend a great deal 
of time and a great deal of worry. As part of the New York 
metropolitan area, Stamford is a major transportation hub for 
the communities in Connecticut and is located on one of the 
busiest stretches of public transportation in the Nation.
    We believe that any public transportation security 
legislation should be guided by four principles:
    First, the establishment of a flexible Federal transit 
security grant program.
    Second, as we have done with aviation, securing public 
transit is a Federal responsibility and should not require a 
local or State match.
    Third, transit security funds should go directly to the 
transit authority or the jurisdiction providing security. We 
must continue to make improvements in the grant application 
process and delivery mechanism for Federal Homeland Security 
resources to make sure that the funding quickly reaches the 
transit system's first responders.
    Since the early days after September 11, 2001, mayors have 
expressed serious concern with a State-based system for 
coordinating preparedness and responses to acts of terrorism.
    Many mayors have positive working relationships with State 
and Federal partners, but there was a real concern from the 
beginning that a complex, Federal distribution system which 
involved various approval levels for first responder resources 
and training would be slow and result in serious delays in 
funding reaching the high-threat, high-risk populations and 
infrastructures, including mass transit.
    Fourth, there should be a robust funding source for 
transit-related security research and development technology.
    I know that our Nation has made significant progress on 
increasing homeland security since September 11th and that our 
Federal-local partnership is much stronger today, with more 
resources, better information sharing, and a greater level of 
general communication. But I fervently hope that the tragic 
attacks in India, the United Kingdom, Spain, and, as was 
referenced today, Moscow serve as a reminder that we must not 
settle for ``good enough.'' These and other attacks 
dramatically highlight the vulnerability of mass transit 
worldwide to terrorism and the need for an increased focus by 
the Federal Government on security for these systems.
    We must recommit ourselves to doing all that we can to make 
sure that our citizens can get on a bus, step onto a train, go 
to work, cheer at a sporting event, or just go about their 
daily lives knowing that everything that can be done has, in 
fact, been done to combat terror.
    We urge Congress to act decisively on this issue. The U.S. 
Conference of Mayors stands ready to work with this new 
Congress in a bipartisan way to safeguard one of our Nation's 
most critical infrastructures.
    I wish to thank you all once again.
    Chairman Dodd. Thank you very much, Mayor. Thank you very, 
very much for that.
    Mr. Millar, thank you very much again for being here.

  STATEMENT OF WILLIAM W. MILLAR, PRESIDENT, AMERICAN PUBLIC 
                   TRANSPORTATION ASSOCIATION

    Mr. Millar. Thank you, Mr. Chair, and congratulations to 
you. I have had the privilege of testifying before this 
Committee since 1978, so I watched you go from there to there 
to there to there. And to Mr. Shelby, thank you so much for 
your leadership over the years and for the many courtesies and 
privileges you afforded me in coming before the Committee. And 
I am very pleased, Mr. Chair, to hear that you want to carry on 
the tradition of this Committee of working in a bipartisan way 
and working on issues that are important to the American 
people. We thank you very much for that.
    I also want to thank you for--I understand yesterday you 
and Mr. Shelby and Mr. Reed and Mr. Allard sent a jointly 
signed letter, along with the Environment and Public Works 
Committee, to the leadership of the Senate that points out how 
important it is in resolving the 2007 appropriations issues 
that the levels for highway and transit funding that were 
included in Safety be honored, and I thank you again for that 
bipartisan leadership and approach on that. That is very 
important indeed.
    As I listened to the opening statements, as I listened to 
the mayor, I am very tempted to just sit back and say ``Ditto'' 
and ``Amen.'' It is very clear that this Committee, the mayors, 
and so many others understand the issues. Today is a weekday. 
Thirty-three million times, Americans will board public 
transportation vehicles today. Almost all of the equipment that 
they will use has been federally assisted in its purchase. 
There can be no doubt that the Federal Government has a major 
role not only in protecting the lives of Americans, but in 
protecting the investment that the Federal Government has made 
over the years.
    I appreciated in the opening statements the important 
review of the history of the commitment of this Committee to 
transit security, and we were very pleased to work with the 
Committee as it guided--to unanimous approval by the Senate--
two security bills in two different Congresses. And as you 
pointed out, unfortunately they never became law, but we must 
keep trying. It is important to do so. And we note with great 
pleasure the important symbolism that the very first hearing of 
this Committee in the 110th Congress is not only about 
security, as important as that is, but that among all the 
things in the Committee's jurisdiction, you chose public 
transit first, and we appreciate that. Greater emphasis has to 
be placed on making our riders safer, making our employees 
safer, and making the communities in which they reside and work 
safer as well.
    As has been pointed out, while it is important to secure 
the Nation's airline system, 16 times more Americans will use 
public transit today than will use the Nation's airlines. They 
are different kinds of systems. The same type of security is 
not going to be appropriate for both systems. But as some have 
mistakenly argued that, well, you just cannot do anything to 
improve security in public transit, it is such an open system, 
that is simply wrong. Many things have been done. Many more 
things could be done. And we must do a much better job of 
training our employees. We must do a much better job of 
equipping our employees. We must do a much better job of making 
sure that there are joint law enforcement training exercises, 
that we improve the communications systems, that we improve the 
security around the perimeters of locations where transit 
vehicles and workers are. And the list goes on and on and on.
    We have provided to the Committee on many occasions results 
of survey work among our members. Yes, the investment levels 
would seem high and seem daunting, but the benefit is so large 
we simply must do that. We do not want to be in a position of 
getting yet another wake-up call. We do not want to be in the 
position of coming back to the Congress after an incident has 
happened in America, and then funding what we knew we should 
have been funding all along.
    The transit systems of America have already invested 
billions of dollars of their own resources. They are prepared 
to invest additional sums. But we need the Federal Government 
as a full partner, and we encourage the Committee to again 
introduce legislation, as you have in the past, and we will be 
standing firmly and strongly with you in an effort to see that 
it is passed.
    My testimony includes many other very specific suggestions, 
but, again, Mr. Chair, we are very pleased to be here today. We 
look forward to working with you and the other Members of the 
Committee, and anything that we can do to help, we want to 
help.
    Thank you very much, sir.
    Chairman Dodd. Thank you, Mr. Millar. I appreciate your 
time and your comments as well about Senator Shelby and the 
work of this Committee. And as you have pointed out, as we have 
all pointed out, we have been through this now on a couple of 
occasions over the last 4 years, so we have a pretty good 
understanding of the issues. There may be some new ideas that 
can come into this, but basically the fundamental principles I 
think that we incorporated earlier make a lot of sense to me. 
And I will be listening to Senators Shelby, Reed, and Allard as 
well, who have carried the lion's share of the load on this 
thing, for any additional thoughts they have. But my sincere 
hope is that rather quickly we will mark up a bill here and 
have it available, working with the Commerce Committee as well, 
too, to have a unified bill that we can then present to the 
leadership for early consideration. So, I appreciate your 
strong comments.
    Mr. George, welcome.

    STATEMENT OF WARREN S. GEORGE, INTERNATIONAL PRESIDENT, 
                   AMALGAMATED TRANSIT UNION

    Mr. George. Good morning, and thank you, Chairman Dodd, 
Ranking Member Shelby, and Members of the Committee. On behalf 
of the members of the Amalgamated Transit Union, I want to 
thank you for giving us this opportunity to testify today on 
the ATU's priorities and strategies for enhancing transit 
security.
    I applaud this Committee's efforts over the past several 
years to work together in a bipartisan manner to address this 
important issue.
    The safety and security of our Nation's public transit 
systems is of utmost importance to the leadership and the 
members of the ATU.
    Faced with the reality of terrorist attacks against mass 
transit, the ATU has for years worked to raise the awareness of 
our members and their employers to this danger and to advance 
real, concrete solutions and initiatives to enhance the safety 
and security of the systems operated and maintained by ATU 
members.
    We strongly believe that the labor community must be a 
partner in any comprehensive effort to address the security 
threats facing our industries. For that reason, we have worked 
closely with our members in the transit industry and officials 
at all levels of Government, including many Members of this 
Committee.
    Many transit agencies themselves have also taken steps to 
securing their operations, but due in large part to funding 
constraints, they have not gone far enough. The reality is that 
the industry and the ATU cannot do this alone. The Federal 
Government must step up to the plate and provide the necessary 
funding, guidance, and even mandates to provide the level of 
security that transit passengers and employees deserve.
    More than 2 years ago, Congress directed the administration 
to take comprehensive steps to address transportation security 
risks, including risks faced by the transit industry.
    It was not until a little over a month ago that President 
Bush issued an order to Secretary Chertoff to draft a plan to 
address security issues in the transit industry.
    Two years later is not a time for drafting plans. It is a 
time for concrete action. The Federal Government must provide 
funding directly to transit agencies for security purposes and 
must ensure that transit employees are prepared in the event of 
an emergency.
    Mr. Millar has already presented a compelling case for 
increased Federal funding for transit security initiatives, 
which the ATU wholeheartedly agrees. And as such, I would like 
to take this opportunity to discuss another necessary component 
of transit security that has gone unaddressed for far too long. 
That is employee training.
    Common sense tells us that the single most important thing 
that we can do to increase transit security is to provide each 
and every front-line transit employee, including rail and bus 
operators, customer service personnel, and maintenance 
employees, with security and emergency preparedness and 
response training.
    While we should not abandon the research and deployment of 
new technologies, we need to recognize what has been proven to 
be the most cost-effective security measure: employee training.
    In the event of a terrorist attack within a mass transit 
system, the response of employees at the scene within the first 
few minutes is crucial to minimizing the loss of life and to 
evacuating passengers away from the incident. Transit employees 
are the first on the scene, even before police, firefighters, 
or emergency medical responders. They must know what to do in 
order to save the lives of their passengers and themselves.
    Front-line transit employees are also crucial in preventing 
attacks. They are the eyes and ears of the system and are often 
first to discover suspicious activities and threats, or the 
first to receive reports from passengers. These employees need 
to know how to recognize security threats and need to know the 
appropriate protocols to follow for reporting and responding to 
potential threats.
    Security experts and officials from the FTA and the TSA 
have publicly recognized the need for employee training. In 
fact, a list of 17 ``Action Items for Transit Agencies,'' 
jointly developed by the TSA and the FTA, includes establishing 
and maintaining a security and emergency training program for 
all employees. And yet little has been done to ensure that this 
training is provided.
    While many in the transit industry claim that the employees 
are being trained, this is simply not the reality. I know this 
because I have talked to our members--the ones who are 
supposedly being trained--and they tell me a different story. 
They are scared, not because they know there is a threat, but 
because they feel out of the information loop, and they have no 
idea how to help prevent an incident or what to do if one 
occurs.
    What is most surprising is that many of the members of my 
union I hear this from are employees of the transit systems in 
major cities that are at high risk of terrorist attacks. For 
security reasons, I will not publicly disclose the names of 
those systems.
    FTA's own numbers show that only a fraction of industry 
employees, less than 25 percent--I repeat, less than 25 
percent--have been trained through the leading industry 
training program which is now provided at transit agencies free 
of cost by the National Transit Institute in partnership with 
the FTA.
    I would be happy to answer any questions you might have on 
it. I know you have my full testimony, and I will not burden 
the record any further. Thank you.
    Chairman Dodd. Thank you very much, Mr. George. We 
appreciate your testimony and the work that your members 
perform every single day. And the issue of training I think is 
one we are going to spend some time talking about here this 
morning, and I am very confident you are going to hear from a 
unanimous panel about the importance of that issue. So we thank 
you for your emphasis on it here this morning.
    Again, welcome, Mr. Garrido. Thank you for coming such a 
long distance to be with us. And please express again our 
sincere condolences to the people of Spain for what you have 
been through, and we are very anxious to hear your testimony.

STATEMENT OF AURELIO ROJO GARRIDO, OPERATIONAL DIRECTOR, METRO 
 MADRID, AND SECRETARY GENERAL, ASSOCIATION OF LATIN AMERICAN 
                  METROS AND SUBWAYS (ALAMYS)

    Mr. Rojo Garrido. Thank you very much. I really appreciate 
Mr. Chairman, Mr. Dodd, and Mr. Shelby, the Ranking Member, 
inviting Madrid Metro to share our tragic experiences in Madrid 
and also our decision that we took after this tragedy.
    Chairman Dodd. I should point out, you have a program here, 
a slide presentation here for us.
    Mr. Rojo Garrido. I will show you some pictures that 
normally we do not show, but I think it is important for all of 
you to see the real situation after the explosion.
    I have some figures about Madrid Metro. The Madrid region 
has 6 million citizens, and Madrid Metro now is 227 kilometers. 
In the next 5 months, we will extend 50 kilometers more.
    In relation with the attacks in Madrid, 13 bombs exploded 
in 4 trains. The trains were in three different stations or 
close to a station. It was in the rush hour, and almost 200 
people were killed and more than 1,500 people were injured. All 
the trains came from the Alcala de Henares Station, a city 50 
kilometers from Madrid.
    Here is a picture with the crowded platform in the same 
hour of the bomb. One of the bombs exploded in this station.
    The other bombs exploded in the open surface. Here you can 
see one of the trains. In this train, the terrorists put three 
bombs.
    Here you can see the first moment after the explosion. Here 
in this tragic picture you can see the first help. The same 
passengers tried to help the others until the members of the 
police and the emergency service came.
    More pictures inside the trains, it was very, very helpful. 
In the picture on the left is some picture of the period when 
the bomb exploded in the platform.
    We did some special measures quickly. We started to do 
inspections on the surface rail. We have 30 kilometers on 
surface; the other 200 are in tunnels. Before opening the 
services, we decided to close the bins, and we changed our 
patrolling systems. We also started to control technical areas. 
We started to do our awareness campaign in order to ask the 
passengers to collaborate with us and with the police. We 
raised many information about the technical assistance that we 
have in order to know our passengers this system.
    The police presence was increased. The Municipal Police, 
which is the second police in Madrid, came also for 2 months 
for Madrid Metro. And we increased also the budget to contract 
private security, more than 20 percent. And what was very 
effective is to create mixed patrols between national police 
and private security guards. It is very interesting for us. We 
decided to remove luggage racks in the trains to the airport, 
and a very important thing is to involve the staff in the 
supervision of security matters and the security training. All 
the courses, the training courses, we did one or 2 days to 
share the latest knowledge in security matters in the 
underground.
    In relation with the management system, we decided to 
implement a new security post in all lines. It is a very 
important decision for us. We already had before the Post 
Command Center and the station and the trains. We decided to 
implement line security posts for all lines, with technical 
assistance to help with the security matters.
    We started to patrol also with trained dogs, some of them 
specialists in explosives, and also we introduced mobile bomb 
detectors.
    After the conversation with the police and the Spanish 
security, we feel it is very difficult to protect a huge 
network with 1 million square meters area, 100 kilometers of 
corridors and platforms, many doors. It is very difficult to 
close a system as underground. For that, we decided to 
implement the general level, introducing technical systems to 
help the police, the security staff, and the operational staff 
to control the space. We introduced PDA for the staff. In this 
PDA it is possible to control and to receive alarms and to 
watch the CCTV system.
    Our regional government decided to have funds to increase 
the security matters, more or less $100 million to spend in 2 
years to improve our communication system and security system 
established, especially the CCTV system.
    We think now on behalf of our association, ALAMYS, the 
Latin American association, our members, the commitment of the 
politics with the leaks in the transit system will be fully 
adopted. We take the decision in order to give funds to 
increase the security level because the target of the 
terrorists is these days the transit system more and more. And 
also the role of the Metropolitan Railway is to collaborate, 
coordinate, facilitate the operation with technical assistance, 
emergency plan, and staff preparedness.
    I think we have many plans in Europe, in the European 
Community, but the central government usually has the main 
responsibility for addressing the plans to fight against 
terrorism.
    Thank you very much. Sorry for taking more minutes. The 
message for all of you is all we can fight against terrorism if 
we are together. Thank you very much.
    Chairman Dodd. Thank you very much, Mr. Garrido. I should 
have mentioned this. I know just recently you have been through 
again another round of terrorist attacks in your country. In 
this case, I think it was ETA who perpetrated these attacks. 
You have been through a lot in Spain over the last number of 
years, and I want you to know you have the support and sympathy 
of the people in this country. I served for a number of years 
as the Chairman of the U.S.-Spain Council, having joint 
meetings every year both here and in Spain to talk about issues 
of common interest, and this was always a subject matter, and 
we can learn a great deal from you. You have made some very 
solid and sound suggestions here that I think are going to be 
valuable to us as we look to our new legislation. But we thank 
you immensely again for your thoughts and comments.
    Mr. O'Toole, again, you have been through a great deal, and 
we are very grateful to you and the British Government for 
participating here today.

      STATEMENT OF TIM O'TOOLE, MANAGING DIRECTOR, LONDON 
           UNDERGROUND, TRANSPORT FOR LONDON, ENGLAND

    Mr. O'Toole. Thank you, Mr. Chairman, and congratulations 
to you. I hope my accent isn't too great a disappointment to 
you all. I am the Managing Director of London Underground, and 
we are the oldest and one of the largest underground railways 
in the world. We are grateful you would include us in your 
consideration of this subject which is so important to us. As 
the Chairman has already pointed out, on the 7th of July in 
2005, four young men, 24 hours after London had just finished 
celebrating winning the Olympics, sauntered into one of my 
stations, Kings Cross. One of them got on a Circle Line train 
headed east. One got on a Circle Line train headed west. One 
got on a Piccadilly Line train headed south. And one we believe 
meant to get on a Northern Line train but got delayed, 
confused, and appears to have been evacuated from the station 
onto a double-decker bus.
    The three who got on the trains waited until the trains got 
into the tunnels, and then they simultaneously detonated bombs 
they carried in rucksacks on their backs. About an hour later, 
the man who got on the bus detonated his bomb. And, as the 
Chairman has already pointed out, 52 people died, 700 people 
were injured, many of them in life-changing ways.
    I am very proud of the way my staff reacted to these 
events. Within minutes, within 2 minutes, they were in the 
tunnels starting to attend to those trains. Within 20 minutes, 
we had made the decision to evacuate the network. We had over 
500 trains in service at that time, and within 1 hour, we got 
250,000 people off that network without a single injury. Within 
2 hours, we had divided management into very separate tasks 
focused on dealing with the immediate scene, designing a new 
service plan, and finding ways, engineering designs to bring 
those sites back.
    You can imagine going through an experience like that, you 
learn a lot of lessons, but I thought I would just focus on the 
one, and the Chairman has already anticipated it. The primary 
lesson is this: You have to invest in your staff and rely on 
them. You have to invest in technology but don't rely on it. 
You have to respond much faster than management can intervene, 
and the only ones who are going to do that are the people on 
the site at the time.
    My staff is competent and professional, and they are that 
way because of the drills we do--not just the drills in London 
Underground, but the drills with all of the agencies, the 
emergency services. My testimony includes a reference to the 
very elaborate and expensive drill we did at Bank Station 
simulating a chemical attack. But we also do them regularly on 
our network with the local fire department simulating an 
emergency at a local station. So my staff knows what to do, and 
what they have to learn is the complexity of the situation they 
are going to address. It is not just having people of a quality 
who have the stomach to run into a darkened tunnel where a bomb 
went off. It is also having a staff intelligent enough to know 
that they have got to split their resources, and half of them 
cannot run into the tunnel. They have got to go take control of 
the entrance, they have to take control of the gate line, 
because the people keep coming at you. They do not understand 
what has happened, and they will complicate the situation 
unless you have staff who are clever enough and trained enough 
to take care of the situation.
    The other great advantage of drills, which I strongly 
recommend, is the fact of the trust that builds up among the 
different people involved. There is nothing worse than having 
one great organization with a lot of power but does not have 
the competency to actually manage the situation.
    In Great Britain, we have a situation that, when an 
emergency happens, the metropolitan police assume plenary 
authority. I report to the metropolitan police at that point. 
My headquarters is right across the street from New Scotland 
Yard. Yet when these bombs went off, an officer didn't come 
across the street to oversee us. The reason they didn't is they 
knew what we would do. They knew we were trained and they could 
rely on us. So the people with different expertise can just get 
on with what they have to do, and that is a very, very 
important element to have in your organization. In other words, 
it is not just the front-line people. The entire institution 
has to be trained and made competent.
    The second half of that lesson is to invest in technology 
but don't rely on it. There are certain elements that are going 
to fail you. Certainly some things are not going to survive a 
bomb blast. The mobile or cell phone network could not handle 
the traffic, so if you have a management structure that relies 
on getting a hold of people with cell phones, you are in big 
trouble. But there certainly are elements of technology that 
are useful. Certainly our CCTV system proved extremely useful 
in the attack that followed 2 weeks later on the 21st and 
allowed the metropolitan police a way to arrest those people 
fairly quickly.
    The only point I want to emphasize is that whatever you 
invest in, it must be as a result of firm risk-based analysis 
and not be simply an investment that panders to the fear in 
society. Railways are extremely inhospitable environments. If 
you introduce a lot of very delicate detection equipment, all 
you are going to do is impose an extremely expensive 
maintenance burden on an institution that we know is invariably 
underfunded. So we have to make sure the things we invest in 
actually lower the risk for the people involved; otherwise, the 
money is better off going into making sure the trains are 
reliable.
    It was an awful day in London on the 7th of July 2005, but 
my staff performed magnificently, and I am very proud of them. 
Thank you, and I would be happy to answer any questions.
    Chairman Dodd. Great testimony. I am grateful to all of you 
for your comments.
    Let's pick up on the emphasis that Mr. O'Toole raised here. 
You have all addressed it. Mr. George did. Certainly Dan has 
talked about it as well. Let me ask you, Mr. Garrido, to 
comment on the statement that you need technology but not to 
rely on it and personnel really needs to have the training and 
background to do the technology aspects of these systems, which 
are rugged systems, that go through a lot. Do you have any 
additional comments to make? Do you have anything you would add 
to what Mr. O'Toole suggested?
    Mr. Rojo Garrido. I agree with Mr. O'Toole and all the 
principle is to have a staff with commitment, with the--
associated with terrorists, and the facilities, the technical 
assistance has to be in to help them to fight against 
terrorism, also against the other security departments in our 
networks.
    I agree also it is very difficult to implement different 
kinds of detectors for this. We already use the mobile 
detectors, decided not to implement fixed detectors because the 
cost of this system is very high, and as we have a huge 
surface, it is impossible to protect.
    The collaboration between police and our operational staff 
is very, very important. It is very important, and we run 
different meetings in order to share between them their 
experiences.
    I agree with Mr. O'Toole, but also I think to decide to 
implement some kind of technical services because without this 
assistance, our staff can manage some situations well, and it 
is very useful for the normal service, the level of security in 
Madrid Metro is now higher in many different fields.
    Chairman Dodd. Great. Thank you very much.
    Let me ask the other panelists. Dan, do you want to comment 
on the training aspects of this and the personnel?
    Mr. Malloy. Well, I listened to Mr. O'Toole and his 
comments about drilling, and I was thinking of how un-American 
that is. We are not used to drilling. We do not do the kind of 
work that other countries have learned is so vitally important 
in preventing and recovering from the kinds of incidences which 
he described, and I certainly applaud his performance and that 
of his agency.
    Listening to your first question, Mr. Chairman, I am 
reminded that interoperability, which is a huge issue, not just 
in transportation but in so many other areas, from recovery 
from natural-occurring incidences as well as terrorism, 
presents a huge challenge to America's cities and America's 
mayors. We need real leadership coming from the Federal 
Government on this issue. Interoperability is really a great 
worry, and the reality is, as I sit here today, that many 
cities and States are struggling with that issue and not 
including transit security in their planning.
    That is a reality. I know it to be the case. And we need 
leadership from this Committee to stress that importance.
    Chairman Dodd. Mr. Millar and Mr. George, I would like you 
to comment on this as well. You talked about it, Mr. Millar, as 
well, and obviously, Mr. George, you represent an awful lot of 
people out there whose lives and careers are at stake. Give us 
some sense of what is happening today. Are we doing enough 
drilling? Is there enough training going on?
    Mr. George. No, Chairman Dodd. There is really not enough 
training going on. We have not even tipped the iceberg in any 
way of training. Our people are out there. They are trying to 
do what is best. They are doing it in a way that they are 
inexperienced. They think they might see something, but they do 
not. I think the transit agencies are hard-pressed for funding 
just to operate the systems. I do not think they have a desire 
not to do the training. It is just impossible for them to do it 
at this time, and I think it is just a recipe for disaster 
someday if we do not get on board and do this. We are willing 
to work with this. It is our lives on the lines at the same 
time as we are protecting our passengers.
    So there is a common goal here. There should never be any 
difference. And this is one where the transit agencies and 
labor and management completely are cooperative in doing the 
training. We just do not have the training out there in the 
major systems.
    Just recently here, on the Metro system where they had an 
accident, it took the operator to get off the train and walk 
through the tunnel back and report what it was and come back 
up. And there are all kinds of estimates of 10, 20 minutes of 
lost time in that. It is just not acceptable in today's world.
    Chairman Dodd. But I gather you are saying what Mayor 
Malloy said. Can you cite any example in the United States 
today where we are doing anything along the lines that Mr. 
O'Toole described, what is being done in London?
    Mr. George. No.
    Chairman Dodd. There is not a single example of it?
    Mr. George. Not one single example.
    Mr. Millar. I am not sure I would 100 percent agree with 
that. Certainly, the major cities, particularly New York City 
has been a leader. But as Mr. George has said, there is no 
disagreement. We may disagree on the amount of training going 
on, but whatever that number is, it is not enough and we are in 
complete agreement that we need to be doing more training.
    As Mr. George said in his testimony, transit workers are 
also first responders. You know, to take nothing away from 
police or fire or other emergency people, but before they get 
there, transit workers are going to be the ones on the scene. 
And as Mr. O'Toole said, if the transit workers know what to do 
and begin the process of securing that scene, when the other 
responders are able to arrive it is a much different situation.
    I would also comment on the technology. I think that is a 
very wise statement Mr. O'Toole has made, that you cannot rely 
on the technology. Yet we know technology can be a big help, 
and the mayor referred to interoperability and communications, 
for example, as an important issue.
    Since 9/11, everyone with a different form of snake oil, if 
I can use that word in this context, a new gadget, has 
approached public transit. We have asked the Department of 
Homeland Security if they wouldn't have their research people 
begin to evaluate what is out there. We are not the experts 
that they are on all the types of gadgets that might be 
helpful. And so we would need--we believe we also need a bigger 
investment in the Federal research aspects of this thing 
because there are some uses for technology and good uses for 
technology as well.
    But to your fundamental point, we agree there needs to be 
much more training. There is no system that I know of that 
would be willing to come and testify and say we are doing all 
the training that anyone should do. We would like to do more. 
As President George has pointed out, it is largely a matter of 
money; it is not a matter of will.
    Chairman Dodd. My last question, I presume that the things 
that you are doing today, Mr. Garrido, in Spain, what you are 
doing today in London--to what extent is the London budget or 
the Madrid budget--or is it the national budget which has been 
contributing to this heightened degree of security in the wake 
of these events? Is it a local expenditure or is it a national 
expenditure?
    Mr. Rojo Garrido. Yes.
    Mr. O'Toole. Well, when we participate in these drills 
within our agency, you know, we are funding our own expenses, 
that is part of our budget, as do the other agencies as well. 
So it is just part of the funding of the enterprise.
    Mr. Rojo Garrido. Now in Spain, the responsibility for 
regional transport and urban transport is for the region 
government. But the central government gives money for the 
general transport system in each region, but the responsibility 
how to spend this money is the regional government. In Madrid, 
the regional government decided to spend contract security, 
private agents, and to spend in facilities and in training our 
staff. It is a local decision.
    Chairman Dodd. The region government makes----
    Mr. Rojo Garrido. The regional.
    Chairman Dodd. Thank you very much.
    Senator Shelby.
    Senator Shelby. Thank you.
    Mr. O'Toole, you are absolutely right about what goes on in 
London and how cool you are and how well trained you are. I was 
in London the day of the bombings. Actually, I was in a meeting 
at Scotland Yard across the street, dealing with an area of 
responsibility of this Committee, that is, the terrorist 
financing, which we pursue diligently on both sides of the 
aisle here. And I was amazed at the response time, how you got 
people off, and then got the transit system, the Tube, moving 
again because a couple of days later I was on it. I was a 
little reluctant to get on it, but my wife and granddaughter 
had been riding it, and I said, ``If they can ride it, I can 
ride it.'' So I commend you on that.
    Mr. O'Toole. Thank you.
    Senator Shelby. And I think a lot of that is training that 
you have. I have been in Madrid since the big bombing, I would 
call it--you know, all of them are big--and met with a lot of 
your people there, and I commend the people of Spain, and 
Madrid especially, for how you responded to that.
    This is a topic that Chairman Dodd has long been interested 
in, and the whole Committee, and we pushed. We have had a 
majority of the votes to fund the fight against terrorism and 
try to protect our transit system on the floor of the U.S. 
Senate. And we have got to do better because it might take 60 
votes instead of a majority, and the Chairman understands this.
    Mr. O'Toole, we all know that there is nothing better than 
the training of the people because of this, but you use a lot 
of the closed-circuit TV. I think you had 6,000. You are adding 
a lot more. How important are they? And is that something that 
we should really push in this country?
    Mr. O'Toole. I think, Senator, absolutely. We had 6,000 
cameras in July. We are rebuilding the whole system right now. 
We are up to around 8,000 now. We will get to 12,000 before 
this is done. They will all be digital. We will record for 
every second.
    It is very important for me to send a message that you come 
on our system, we are taking your picture. And that does not 
help if you are dealing with a 7th of July situation, a suicide 
bomber, but I have to believe it did play a role in the Madrid 
situation because they got on the commuter rail. They did not 
get on his Metro system directly where they would have 
confronted a very different situation. So if you want to get 
away, you are not going to come onto a Metro system that has 
CCTV.
    It plays another role, though, that I think is sometimes 
missed by people who talk against the investment. If you are 
trying to lead a society, it seems to me, you are really 
dealing with the phenomenon of fear. I mean, the deaths are 
awful, but, you know, people die from different causes all the 
time. It is when they die in this situation that causes society 
to panic.
    With CCTV, you are immediately able to analyze and present 
what happened. When those pictures were presented on July 22nd 
following the unsuccessful bombing attack, the underlying 
message to all of London was: Here they are, you know what will 
happen next, we are going to arrest them.
    If those pictures did not exist, it would have contributed 
to that sense of fear, they do not know what is going on, they 
are going to come back. CCTV allows you to take control of the 
situation and project this sense of control, and I think that 
is as important as almost any other attribute that leadership 
brings to one of these situations.
    Senator Shelby. I want to pick up on what Senator Dodd was 
alluding to earlier, and that is the funding source. First, 
transit security or Tube security, Underground security in 
London, do you have a local or a Metro source of funds, or is 
it a national source of funds from the House of Commons?
    Mr. O'Toole. In Great Britain, everything comes from the 
Chancellor, so----
    Senator Shelby. Chancellor Gordon Brown.
    Mr. O'Toole. Right. So we have got the money we raise at 
the till, and then we get a grant from government.
    Senator Shelby. OK.
    Mr. O'Toole. The Federal Government.
    Senator Shelby. In Madrid, what is your funding source--
national--for security of the Madrid system and rail system?
    Mr. Rojo Garrido. The budget is from the regional 
government. Regional, it is like a State here in the United 
States. But the central government framework, more or less 30 
percent of the budget of the regional transit system are 
provided for the central government. But the regional 
government has the decision in which to invest, in more 
security, more stations, more traffic security. The political 
decision is taken at this moment by the regional government.
    Senator Shelby. Are there similarities of how you run your 
transit security in Madrid to the way they do in London? I am 
sure there are some differences, but are there similarities? Do 
you have a lot of closed-circuit TV? You check the rails a lot, 
all these things. Is that just fundamental to security of a 
transit system?
    Mr. Rojo Garrido. Yes, it is similar. Before the attacks, 
we have closed-circuit TV locally in the station, but now we 
can record all the cameras, not before, and it is possible to 
share from the Post Command Center and the local security post. 
And in the case of Madrid, the police could know the moment of 
the terrorist in the underground because the terrorists travel 
in the underground using record files. And it is important 
because now almost 40 people are imprisoned after the 
investigation of the police, and they used many, many 
frequently the system of the Madrid Metro. It is very useful 
for police.
    Senator Shelby. Mayor Malloy, tell me what you mean by a 
flexible Federal transit security grant program.
    Mr. Malloy. I want you to get money to where it needs to 
be.
    Senator Shelby. That is a great answer.
    Mr. Malloy. That is what I want.
    Senator Shelby. For security.
    Chairman Dodd. This guy agrees with you.
    Mr. Malloy. I know.
    [Laughter.]
    Senator Shelby. For security.
    Mr. Malloy. For security. And, you know, this is such--you 
know, if you look at this on a national basis, these are very 
different systems, very different needs. Decisions need to be 
made close to the ground. But to implement those decisions, we 
need money. We need resources. Quite frankly, Senator, you need 
to get it to us, and I began my remarks by thanking and 
congratulating you for your work with us. We need your 
continued leadership on this issue.
    But the reality is that we are ready to build that system. 
We are ready to make America safer. We are ready to have safer 
transit. But, quite frankly, the resources need to come to us 
to allow us to do that.
    Senator Shelby. I agree with you.
    Mr. Millar, you have been before this Committee many times. 
We have worked with you on this very subject. How important is 
to have a funding source separate and distinct from the 
Department of Homeland Security's transit passenger and freight 
rail security funds?
    Mr. Millar. Yes, we believe that having a dedicated funding 
source to public transit is essential. When you are mixed in 
with many other----
    Senator Shelby. For security.
    Mr. Millar. For security, absolutely, because if it is 
mixed in with--you need to secure the ports. You need to secure 
the airports. You need to secure transit. You need to secure--
the list goes on. And if it is all in one big melange, you do 
not do any of them well. We need to set the kinds of standards 
that we want.
    For example, we have proposed to the Department of Homeland 
Security--APTA is a standard-setting organization--we have 
proposed that we would work with them to develop standards so 
we would know when you have a rail transit system, here are the 
kinds of things you ought to be doing; a bus system, these 
kinds of things.
    So a dedicated source of funding for transit security is 
essential.
    Senator Shelby. Well, we hate to talk about things like 
this in public, but we have to because this is part of our 
obligations and responsibilities.
    Mr. Millar. Yes, sir.
    Senator Shelby. But we have, as we all know, a great 
vulnerability in our passenger system, our rail system, our bus 
system. All of it goes together, and I do not think we have 
addressed that in any adequate way.
    Mr. Millar. I agree with you.
    Senator Shelby. Thank you, Mr. Chairman.
    Chairman Dodd. Well, thank you again, Senator Shelby, for 
your leadership on that, and the other individuals who have 
spent a lot of time on these issues.
    To my colleague from Rhode Island, I went through this a 
while ago, and I would be remiss at this historic moment of my 
new chairmanship not to point out that at long last I have a 
colleague who has a younger child than I do.
    [Laughter.]
    Chairman Dodd. I want to announce publicly here that we 
welcome Emily.
    Senator Reed. Thank you very much.
    Chairman Dodd. I hope Julia is doing well, and 
congratulations to our good friend from Rhode Island on the new 
arrival.
    Senator Reed. If Emily were here, it would be hard to hear 
anything else.
    [Laughter.]
    Senator Reed. She is now celebrating her 16th or 17th day 
with us, so thank you very much, Mr. Chairman.
    Chairman Dodd. Congratulations to you.
    Senator Reed. I just want to commend again not only the 
Chairman and the Ranking Member but the panelists for excellent 
testimony. And one reason--and this echoes, I think, Senator 
Shelby's comment--is this terrorist threat, as we have been 
standing still, has been metastasizing to a much more 
sophisticated--and if you look, and I have spent some time on 
the Armed Services Committee, the fear today is not a bunch of 
17- , 18-year-old amateurs, although very deadly; it is very 
sophisticated sole operators getting instructions through 
cyberspace, and that is why this incident in Los Angeles is one 
that is quite disturbing. A lone individual may have been 
testing the system and may have been either an agent or--and we 
hope it is nothing, but this is a threat that is very serious. 
And we have not yet provided the resources, the direction, and 
the coordination we need. So I hope we can do that. I am 
confident that with Chairman Dodd and Senator Shelby we will.
    Anyway, I thought all the testimony was excellent. Mr. 
O'Toole pointed out that one of the advantages they had in 
London was a centralized chain of command in a military sense. 
People know exactly who is in charge. Not just in your city but 
across the country, do you think at the local level there is a 
need for a centralized chain of command with interoperable 
communication, et cetera, so everyone knows who is in charge, 
who does what, is that your sense?
    Mr. O'Toole. Senator, I think we have made progress, but 
the reality, if we are talking about the ability of local first 
responders to cooperate, aid, and assist on a transit basis, I 
do not think we are anywhere near where we need to be. And to 
piggyback on the point that Senator Shelby made, we actually 
need you to set those priorities. I think that is why I am 
here. Other governments--State governments, governments that do 
not have as active or robust transit systems as some others 
will--will always set this at a very low priority. It will be a 
back-seat issue. And that is why the leadership of the U.S. 
Senate and the House is vitally important to setting this 
agenda.
    If you say it has to be done, and if you provide the funds 
to do it, it will be done. And, quite frankly, if you fail to 
do that, unfortunately, not because of this Committee's work, 
but our government has failed to do it, we are not making the 
kind of progress that we need to make.
    I hope that answers your question.
    Senator Reed. It does, but let me also ask another 
question, I think, that my colleagues have suggested, which is, 
the current structure of Homeland Security funding flows 
through the States, and for many reasons--and you alluded to 
them--that money never seems to get into transit because there 
are these other demands out there.
    In some respects, we have not given enough money, but in 
other respects, there is a natural kind of sponge at the State 
level. And I am not suggesting they are doing anything that I 
would not do if I was a governor, but it always seems that the 
last person in line is the transit system and a local mayor.
    Mr. Malloy. I think that that is correct. It has been the 
position of the U.S. Conference of Mayors from December 12th on 
that mayors needed to be viewed as partners in building the 
system that will allow us to defeat terrorism, and certainly to 
recover from it when it strikes.
    As mayors--and the U.S. Conference of Mayors represents 
some 1,200 communities with populations of 30,000 or more--we 
do not believe this current system is working well for local 
government. It is delaying implementation. It is siphoning off 
funds that need to go. And to be very direct and to agree with 
you, Senator, one of the results is a lack of money and the 
lack of efforts on behalf of transit.
    Senator Reed. Thank you very much.
    Mr. Millar and Mr. George, thank you for your testimony, 
and I enjoyed working with you and continue to look forward to 
doing that. Mr. O'Toole and Mr. Garrido laid out a 
comprehensive approach to transit security. Senator Dodd asked 
about training, but I am asking a broader question. Is there 
any community in the United States that matches the model of 
Madrid and London, who are reacting to this violence already? 
They have internalized it, not just in training but in 
technology, in coordination, in the whole gamut. Can you cite 
one?
    Mr. Millar. Certainly New York City and the agencies there 
are, in my opinion, far ahead of many other places. Here in 
Washington, DC, a very good job has been done as well. But 
much, much more needs to be done.
    We agree with the model. It is what we aspire to do. But 
for all the reasons we have talked about today, it has not 
happened yet to the degree it should. But we agree.
    Ironically, the day that the terrible bombings occurred in 
Madrid, my Director of Safety happened to be in London, and 
Madrid officials were also in London because we were all trying 
to learn from one another. There has been very good 
international cooperation in sharing experiences, and I 
particularly want to thank my colleagues not only for coming 
today at your invitation, but for sharing their experiences. 
They have helped us develop a model so we know what needs to be 
done. Now we need to get about the business of funding and 
implementing.
    Senator Reed. In other words, even our most advanced 
municipal metropolitan areas have not reached the level of sort 
of security that we see in London and Madrid.
    Mr. Millar. That is my opinion, yes, sir.
    Senator Reed. And, Mr. George, we have talked about 
training. It is so essential. And I must say, because our 
hearings before, particularly after our incident on 9/11, 
because of the spontaneous actions of transit workers in New 
York City and in Washington, DC, many, many people were saved. 
The transit workers in Washington moved trains from the 
Pentagon, evacuated people, kept moving, and there were 
critical decisions made by New York transit workers--your 
members, I presume--who at the risk of their own lives either 
moved trains out or stopped trains of their own volition, not 
going to that subway station below the World Trade Center.
    But the point I think we have all said today is we cannot 
count on just spontaneous instincts and, you know, the wisdom 
of--we have got to instill that, and I think that is your 
position.
    Mr. George. That is correct, and I might add, one thing 
that goes unnoticed and that we are very proud of in the 
Amalgamated, we also moved 250,000 school children safely home 
in yellow buses that day, and it gets no notoriety, and that is 
fine. But those members returned from their homes in that split 
shift in a day and automatically on their own, without 
direction, went and picked those kids up. They thought that was 
their primary duty. And the bridges were all closed, as we 
know, so they had a very difficult time.
    Chairman Dodd. But Jack's point is that was done by 
instinct.
    Mr. George. Instinct.
    Chairman Dodd. That was not because someone had thought 
about this ahead of time.
    Mr. George. No, it was not. And I guess really what it--the 
training aspect of it, you know, we run very good transit 
systems in this country, and we run them with really good 
members, my members and employees. This is a new ingredient 
that has come into the fold that no one really knows. And I 
think the leadership of this Committee that has to put the 
mandates down, we do not have--we haven't reached that area of 
expertise where we do work on--like they do in Madrid and they 
do in London. We are far from that area yet. We are going at it 
as novice, and we have to really go at it with a professional 
type of thing. And I think that is where it takes the funding, 
and I think it takes a mandate from the Federal Government with 
Homeland Security to say, look, this is an important thing.
    I might add, I know we are talking about public transit, 
but we have our over-the-road industry which I represent, and 
that, too, is very vulnerable at the time. And those over-the-
road operators cannot afford to do the things that some of the 
public transit are doing right at this time with the limited 
amount of funding they have.
    So it is a great concern to my members.
    Senator Reed. Well, I have a great deal of respect for your 
members. My great-grandfather and grandfather were transit 
workers in Providence, Rhode Island, starting on the horse cars 
and then going to the electric trolleys.
    Mr. George. Very good.
    Senator Reed. So this is a genetic disposition on my part.
    [Laughter.]
    Mr. George. Thank you.
    Senator Reed. A final question, and I think I have been 
told to relinquish my time. Both Mr. Garrido and Mr. O'Toole, 
if you could just tell us the three recommendations you would 
make. You know, what are the three top things you felt you had 
to do immediately either to get the system in shape or to 
respond to this attack? Mr. Garrido.
    Mr. Rojo Garrido. It is necessary to balance, to manage 
people and systems, both, in our opinion, necessary, in first 
place, of course, people but with the help of the technical 
system. The commitment for politics that fight against 
terrorism in the field of public transport because in this 
moment one of the main objectives for them. And if our citizens 
don't feel well in our system, our cities, we don't develop in 
a sustainable way. And to maintain safe transit system, it is 
essential for our cities today. These are our main suggestions.
    Senator Reed. Thank you.
    Mr. O'Toole.
    Mr. O'Toole. I would say the ability to not reward these 
people with chaos and fear, and that means, number one, you 
have got to bring the system back immediately. You cannot have 
any delay.
    The second thing is to allow that to happen, you have to 
have a plan so that you project this sense of control.
    And I would like to add, it is not just about training 
everyone, you run here and you run there. It is also about a 
comprehensive plan, and I would like to just give you two 
examples that you will be judged by.
    Senator Reed. Please.
    Mr. O'Toole. Number one, every transit agency better know 
where they would and how they would set up a family and victim 
assistance center. You do not get a couple of days to think 
about this. These people come at you right away, and you will 
be judged on whether or not you have those kinds of facilities.
    The second thing is your employees in a situation like this 
confront things people are not supposed to see in everyday 
life, and the violence we see on movies and television is 
antiseptic compared to what they will confront. You saw some of 
those pictures. But we have people going into darkened tunnels 
with limbs spread all over and stepping on pieces of humans, 
and it is just--this sticks with people. So you better know how 
you are going to deliver a lot of counseling to these people. 
It is not enough to call them heroes the next day. They need 
help, and you have to be able to deliver it. And if you don't 
know how you are going to deliver it, you are going to be 
judged very harshly on that as well.
    So you really need a group to sit down and think about an 
incident like this all the way through and divide up the 
various tasks. It is just about kind of projecting this whole 
plan to the community.
    Senator Reed. Thank you very much.
    Chairman Dodd. That is great testimony. I was thinking of 
the importance of that and thinking in a holistic way about all 
of this. I noted the other day, picking up on Senator Reed's 
point here about talking about Washington, DC, the control 
center for the Metro system in Washington, DC, is just a few 
blocks from the White House. And I know that there has been an 
effort over the past number of years to try and move that 
center out to one of the more suburban areas, one of the 
reasons being that if you faced a tragedy here in the city, you 
could end up not only with that tragedy on your hands, but also 
shutting down your entire Metro system, given the proximity to 
some of these targets that could be attractive to these people.
    So it really does need this thinking. They cannot get the 
funding for this, by the way. That has been the problem. There 
is no funding to move this. So you are faced with these kinds 
of dilemmas.
    And you said something, Mr. O'Toole, that I want to pick up 
on. Dan may remember this. We had a meeting in Fairfield 
County, at the University of Fairfield, in fact, about a year 
or so ago, where we just were talking not about specific 
transit systems but what would happen in Lower Fairfield 
County, which is a highly congested area, if we had an incident 
on Route 95, one of these major problems, whether it be an 
accident or something more manmade. How is everyone going to 
respond to this? What happens in our hospitals? What happens in 
our schools? The first responder, as someone pointed out, is in 
this case transit and transit workers. If it is a building, it 
is the employees in that building. The first responders are the 
people who are on the site where the incident occurs. So to 
what extent have you thought really getting into this is how do 
we respond to it.
    And it was very revealing, even there sitting down, saying 
they had thought about it but never in a complete enough way. 
And I wonder if we have any sense of this about first 
responders, in addition to what we are doing with the transit 
workers and the employees involved in this situation, to what 
extent, asking Jack's question again, has there been any 
thought beyond some isolated anecdotal cases, are we really 
working at this, even sitting down and talking about it? Forget 
about going to a drill. Are people sitting down someplace and 
saying what do you do and what do you do and what do you do?
    Mr. Millar. Yes, that is happening, and that is recognized, 
and that is one of the important lessons we have learned from 
around the world. So, yes, that type of comprehensive approach 
is worked through, and I would venture to say that in most 
major metropolitan areas, that basic level has been decided. 
But when you get past that top level is where we need more 
work.
    Chairman Dodd. Again, I thank all of you for being here. I 
am going to turn to Senator Shelby. He has got another couple 
of questions here. But this is a top priority for this 
Committee. The reason we had this as our first hearing, I think 
Mr. O'Toole made the point, not only responding to get things 
back up, it is the mentality, it is the ripple effect beyond 
the actual event itself that can have huge implications. And 
you end up with a good percentage of your people not wanting to 
get back onto a system. Just imagine what effect that is in 
terms of just commerce, if that goes on for days what happens.
    So it is fear sometimes far beyond the actual event that 
these people are trying to create, and I think it is very 
important, the prosperity aspects of this beyond the incident 
itself are critically important for our discussion. And I am 
very much enthusiastic about Dick Shelby's concepts and ideas, 
and this is where we are focusing on where the risks are. And I 
was thinking here, as the author of the FIRE Act and the FIRE 
grants, these monies have all gone directly to the communities 
involved, and it has made a huge difference just in terms of 
how well a dollar gets spent and what the priorities are, and 
it has worked very well.
    Mr. Malloy. Senator, it is a far better model than the one 
that we are pursuing on a national basis today. That is the 
reality. This is what mayors have been saying. Clearly you have 
heard that from your fire departments from across the United 
States.
    Chairman Dodd. Senator Shelby.
    Senator Shelby. I will reserve any questions, but I do want 
to join you in thanking all of you for your concern, your 
involvement, and also for coming a long way, from London and 
Madrid, you two, to be with us today. We will continue to work 
on this.
    I think we cannot alleviate all the fear and all the risk, 
but we can cut out a lot of it, and we can reassure a lot of 
the traveling public that we are meeting our responsibility, 
that is, if we can get our colleagues to join us.
    Thank you, Mr. Chairman.
    Chairman Dodd. You bet. I would just note in the Committee, 
because this would be my first day, I looked out in the 
audience and there is a fellow by the name of Jack Hargett who 
is in the audience. Jack Hargett goes back. I have known him 
almost all my life. He worked with my father up here in the 
U.S. Senate many, many years ago. So, Jack, it is good to see a 
familiar face, and someone who is deeply involved in these 
issues, I might point out as well. So thank you for being here.
    I think all of us, with all due respect to our domestic 
witnesses here, I cannot tell you, Mr. Garrido, how much we 
appreciate your being here. And it means a great deal, Mr. 
O'Toole. Thank you very much.
    Senator Shelby. One other comment if you would recognize 
me.
    Chairman Dodd. Yes.
    Senator Shelby. I think I would be remiss if I didn't 
recognize publicly the work that Senator Reed and Senator 
Allard have done in this area. I did not know it was genetic 
with Senator Reed, but he has worked hard in transit security 
and all aspects of this. And I wanted to publicly do that for 
the record.
    Chairman Dodd. Well, very good. Again, thanks to all of 
you.
    We are going to keep the record open for members who may 
want to ask some questions. We will leave it open for about a 
week because we want to get right back to a markup if we can 
soon on this bill. We want to move things along. So there may 
be some additional questions that colleagues would like to 
raise with you, so we will leave that availability open, and we 
hope you could respond fairly quickly to some additional 
questions that may come up.
    Again, I thank all of you for being here today and I thank 
my colleagues.
    The Committee will stand adjourned.
    [Whereupon, at 11:36 a.m., the hearing was adjourned.]
    [Prepared statements supplied for the record follow:]
               PREPARED STATEMENT OF SENATOR WAYNE ALLARD
    I would like to thank Chairman Dodd for convening today's hearing 
on transit security. It is an appropriate topic to be the Committee's 
first issue for consideration in the 110th Congress.
    Every single day in America, millions of people ride public 
transportation, and we all represent transit riders. Following the 
tragic attacks on public transportation systems around the world, we 
have all become acutely aware of the need to strengthen security for 
American transit.
    Yet, transit systems present a unique security challenge--the 
success and efficiency of public transportation is predicated on open 
access. The security approaches utilized in other modes, such as 
aviation, would destroy the viability of a transit system.
    There are ways in which the unique security needs of public 
transportation can be addressed. Although part of their expertise comes 
from unfortunate personal experience, Mr. Garrido and Mr. O'Toole can 
help us learn from the Madrid and London tragedies. I sincerely 
appreciate their willingness to appear here today to help us better 
understand this issue.
    In my previous capacity as Chairman of the Housing and 
Transportation Subcommittee, I was pleased to work with my counterpart 
from across the aisle, Senator Reed, along with our full committee 
leadership, Senator Shelby and former Senator Sarbanes, in drafting 
legislation to make America's public transportation systems safer. I am 
confident that Chairman Dodd will continue the active interest of 
Senator Sarbanes.
    In particular, I was pleased that the grant allocations were to be 
based on security assessments conducted by the Department of Homeland 
Security (DHS). They are in the best position to identify risks and 
vulnerabilities, while factoring in relevant security information, in 
order to prioritize needs for grant allocation. This would ensure that 
the program is as efficient as possible in meeting transit security 
needs, rather than simply becoming another pork program.
    Although our bill passed the Senate on multiple occasions, it has 
yet to be enacted into law. I am hopeful that the committee will be 
able to move legislation quickly, and I look forward to working with my 
colleagues and Chairman Dodd to accomplish this goal.
    Although it is not in the Banking Committee's jurisdiction, I 
wanted to take this opportunity to mention another bill which I believe 
will be very beneficial to transit security. At the beginning of the 
110th Congress, I reintroduced legislation to expand the National 
Domestic Preparedness Consortium to include the Transportation 
Technology Center in Pueblo, CO. This unique facility enhances 
technology and training to prevent, minimize, and respond to potential 
terrorist attacks. I believe that it is an excellent complement to the 
legislation that has previously passed the Banking Committee, and I 
hope my colleagues will join me in supporting it.
    I regret that I will be unable to stay for this hearing due to 
another hearing in a different committee; however, I intend to 
carefully review the information from this hearing. This is an 
extremely important issue, and I thank the Chairman for making it such 
a high priority.
                                 ______
                                 
              PREPARED STATEMENT OF HON. DANNEL P. MALLOY
   Mayor of Stamford, CT, and Trustee, The U.S. Conference of Mayors
                            January 18, 2007
    Thank you very much for inviting me to speak with you today on 
behalf of The United States Conference of Mayors regarding the state of 
transit security. The United States Conference of Mayors is the 
official nonpartisan organization of cities with populations of 30,000 
or more. There are 1,139 such cities in the country today, each 
represented in the Conference by its chief elected official, the Mayor.
    On behalf of The United States Conference of Mayors, and the 
hundreds of mayors we represent, we appreciate your interest in public 
transportation security, and we look forward to working with you as you 
develop legislation to safeguard America's bus, rail, and ferry 
systems.
    The written comments delivered this morning will focus on four key 
transit security areas identified by the mayors:

    1. The establishment of a flexible Federal transit security grant 
program.
    2. Securing public transportation systems is a Federal 
responsibility.
    3. Transit security funds should go directly to the transit 
authority or that jurisdiction providing security.
    4. Robust resources for transit-related security research and 
development of technology.
Overview
    One month after September 11, the leadership of the Conference of 
Mayors called an emergency homeland security summit in Washington, DC, 
Hundreds of mayors, police, fire, emergency management, and 
transportation officials came to that summit and drafted a sweeping 
``National Action Plan for Safety and Security in America's Cities.'' 
That National Action Plan was updated in October of 2005 with special 
emphasis on transit security following the attacks on London's 
Underground Tube system, aboard London Transit Buses, and Madrid's rail 
system.
    In addition, my comments delivered this morning originate from the 
Conference's ``Strong Cities . . . Strong Families . . . For a Strong 
America'' 10-Point Plan which will be presented next week at The United 
States Conference of Mayors 75th Winter Meeting in Washington, DC.
    The United States Conference of Mayors and its members have 
dedicated themselves to making America's cities safer by preventing 
possible acts of terrorism, and being ready to respond should 
terrorists strike.
    Mayors have never waited for assistance from others to act. Mayors 
and cities continue to focus on protecting their citizens from possible 
terrorist attacks, including attacks on mass transit. At the same time, 
we must further strengthen our partnership with the Federal government 
to make sure that our ``first preventers'' and ``first responders'' 
have the resources and training they need to succeed, and that all 
necessary Federal support is ready in the event of a catastrophic 
event.
    To this point, the nation's mayors believe more must be done at the 
Federal level of government to make sure that our cities are able to 
respond to the growing challenges of securing public transportation 
infrastructure. As the American Public Transportation Association's 
(APTA) survey identified, Congress has allocated only $386 million to 
transit security through Fiscal Year 2006, yet transit agencies have 
identified in excess of $6 billion in transit security investment 
needs. \1\
---------------------------------------------------------------------------
     \1\APTA's transportation security survey identified needed 
enhancements costing at least $5.2 billion in additional capital 
funding to maintain, modernize, and expand transit system security 
functions to meet increased security demands. Over $800 million in 
increased costs for security personnel, training, technical support, 
and research and development have been identified, bringing total 
additional transit security funding needs to more than $6 billion.
---------------------------------------------------------------------------
    We urge Congress to act decisively on this issue.
    For the city of Stamford, CT, securing these wide open and 
vulnerable systems is a priority. As part of the New York metropolitan 
area, Stamford, a city of nearly 127,000, is one of the largest cities 
on the route between New York and Boston. It is a major transportation 
hub for other communities in the State of Connecticut and is located on 
one of the busiest stretches of public transportation in the Nation. 
\2\
---------------------------------------------------------------------------
     \2\ Stamford is located on the main branch of the New Haven Line 
on the Metro-North Railroad, the commuter rail system for northern 
metropolitan New York City. Stamford Station is the last express 
station in the direction of New York City, and thus serves as a major 
transfer point for faster trains into New York City. Stamford Station 
is also the terminus of a Metro-North branch line that ends in New 
Canaan, about 15 miles away and is also a major Amtrak station served 
by the high-speed Acela trains that run from Washington, DC, to Boston. 
Amtrak's Regional and Vermonter service has linked Stamford with daily 
trains to Virginia, Vermont, and intermediate points. Bus service runs 
along major arterial roads as well as connecting the city with New 
York.
---------------------------------------------------------------------------
Priorities for Enhanced Public Transportation Security
    With more than 7.8 billion trips taken nationwide on public transit 
in the first 9 months of 2006, \3\ protecting riders from potential 
terrorist attacks remains a high priority for mayors, public safety 
officials, and first responders.
---------------------------------------------------------------------------
     \3\ APTA announced on January 7, 2007, that public transportation 
ridership has increased by nearly 3 percent in the first 9 months of 
2006, as Americans took 7.8 billion trips on public transit.
---------------------------------------------------------------------------
    We believe that any public transportation security legislation 
should be guided by four principles.
    First, the Nation's mayors are calling for the establishment of a 
flexible Federal transit security grant program to improve security in 
the areas of communications, surveillance, detection systems, 
personnel, training, and research. Specifically, this grant program 
should fund security cameras onboard public transportation vehicles and 
in bus and rail stations, video surveillance and threat detection 
cameras, increased surveillance via closed circuit TV, and automated 
bus and rail locator systems. As far as infrastructure expansion, 
modernization and rehabilitation, the grant program should fund 
permanent chemical, biological, and explosive detection systems, 
fencing and barriers, lighting, alarms and access control for tunnels, 
bridges, interlockings, tracks, yards and facilities, redesign of 
infrastructure to eliminate hiding places, the life safety program in 
New York City, and to rehabilitate existing Baltimore and Washington, 
DC, tunnels.
    Second, as we have done with aviation, securing public transit is a 
Federal responsibility and should not require a local or State match.
    Third, mass transit security funds should go directly to the 
transit authority or the jurisdiction providing security. We must 
continue to make improvements in the grant application process and 
delivery mechanism for Federal Homeland Security resources to make sure 
that the funding quickly reaches the transit system's first responders.
    Since the early days after September 11, 2001, the Nation's mayors 
have expressed serious concern with the state-based system for 
coordinating preparedness and responses to acts of terrorism.
    Many mayors have positive working relationships with State and 
Federal partners, but there was a real concern from the beginning that 
a complex, Federal distribution system that involved various approval 
levels for first-responder resources and training would be slow and 
result in serious delays in funding reaching high-threat, high-risked 
populations and infrastructures, including mass transit.
    Unfortunately, the many surveys our organization conducted proved 
this to be the case. Time and time again, our surveys showed that 
resources were not reaching our cities and the critical infrastructure 
quickly.\4\
---------------------------------------------------------------------------
    \4\ The United States Conference of Mayors 231-City/50-State 2004 
Third Report to the Nation on Tracking Federal Homeland Security Funds 
showed that of the cities responsible for providing transit security, 
one-fourth of the cities reported that their State was exercising its 
option to keep a portion of the transit security funds to complement 
State assets at transit sites.
---------------------------------------------------------------------------
    Fourth, there should be a robust and dedicated funding source for 
transit-related security research and development technology. 
Recognizing the threat posed to mass transit systems by acts of 
terrorism, mayors urge increased research and development to counter 
these growing challenges, both by improvements to current capabilities 
and development of new technologies.
Conclusion
    Chairman Dodd, Ranking Member Shelby and Members of this Committee, 
let me make some closing comments.
    I know that our Nation has made significant progress on increasing 
homeland security since September 11, and that our Federal-local 
partnership is much stronger with more resources, better information 
sharing, and a greater level of general communication.
    But I fervently hope that the tragic attacks in India, the United 
Kingdom, Spain, and Israel serve as a reminder that we must not settle 
for ``good enough.'' These and other attacks dramatically highlight the 
vulnerability of mass transit worldwide to terrorism and the need for 
an increased focus by the Federal Government on security for these 
systems.
    We must recommit ourselves to doing all that we can to make sure 
our city and county citizens can get on that bus, step into that train, 
go to work, cheer at that sporting event, and just go about their daily 
lives knowing that everything that can be done is being done to make 
them safe from terror.
    I cannot over-emphasize the critical importance of public 
transportation to our local economies and the long-term vitality of our 
cities and the Nation. That is why we must invest in transportation 
security.
    We are all in this together.
    On behalf of the Nation's mayors, The United States Conference of 
Mayors stands ready to work with this new Congress in a bi-partisan way 
to safeguard one of our Nation's most critical infrastructures, public 
transportation.
    Thank you again for the opportunity to appear before you today.
    I look forward to questions.

                               EXHIBIT A

                 The United States Conference of Mayors

                         Mayors' 10-Point Plan

     Strong Cities . . . Strong Families . . . For a Strong America
1. Energy and Environmental Block Grant (Climate Change)
    Mayors from across the Nation, working through The U.S. Conference 
of Mayors, are leading the Nation in taking action on the critical 
issue of global warming. Local governments are in a unique position to 
implement and coordinate local action that will lead to significant and 
real reductions in energy use and its impact on global warming.
    When our Federal Government refused to take action on the issue of 
Climate Change, over 350 cities pledged their commitment to the U.S. 
Mayors Climate Protection Agreement to call attention to the global 
warming crisis and to begin development of local programs to reduce 
carbon emissions. This community-based, grass roots effort is key to a 
successful national strategy to reduce our energy dependence, decrease 
carbon emissions, and improve the environment.
    The U.S. Conference of Mayors proposes creation of an Energy and 
Environmental Block Grant, modeled after the highly successful 
Community Development Block Grant, to provide funding directly to 
cities and urban counties for programs that 1) improve community energy 
efficiency; 2) develop and implement community strategies to reduce 
carbon emissions, including but not limited to achieving ``carbon 
free'' buildings by 2030; 3) develop and implement community and 
transportation energy conservation programs; 4) encourage the 
development of new technologies and systems to decrease our dependence 
on foreign oil; and 5) promotion and development of alternative/
renewable energy sources. Funds could also be used to support local 
non-profit organizations to meet the objectives of the program. The 
Block Grant would be distributed under a formula based on population 
and other factors, modeled after CDBG, and include measurable 
objectives.
    Initial funding for the Block Grant could come from (in part or in 
whole) from revenues derived from the proposed repeal of the 2004 tax 
cuts for the oil and gas industry and royalty payment from off-shore 
oil and gas leases.
    Eligible activities under the Block Grant would include, but not be 
limited to, development of comprehensive energy, environment, and 
climate protection strategic plans, weatherization programs, energy 
efficiency audits, alternative fuel infrastructure, incentives for 
energy efficiency technologies, promotion of public transit, methane 
recovery programs, conversion of alternative fuel fleets, public 
education, brownfields redevelopment, land-use policies, etc.
2. Federal-Local Partnership on Crime Prevention (Violent Crime Rising, 
        Federal Resources Cut, Trust Fund Needed)
    For a growing number of cities across the United States, violent 
crime is accelerating at an alarming pace. The FBI's Uniform Crime 
Report for 2005 showed the largest single year percent increase in 
violent crime in 14 years. This trend continued in 2006 according to a 
Police Executive Research Forum survey of 55 law enforcement agencies, 
with many cities seeing double-digit increases in murder, assault, and 
robbery rates.
    Mayors and police chiefs have identified a number of contributing 
factors for this rise in crime including a growing culture of violence 
among youth, gangs, a proliferation of illegal guns, drug activity, the 
re-entry of ex-offenders, and social problems related to school truancy 
and a lack of jobs. Funding for major Department of Justice law 
enforcement programs has been slashed in recent years, with the COPS 
hiring program (once funded at almost $1.5 billion) and Local Law 
Enforcement Block Grant program (once funded at approximately $523 
million) both being eliminated.
    To address these issues, the Nation's mayors are calling for a new 
crime initiative to restore the Federal-local partnership on hometown 
security. As was done under the 1994 Crime Bill, mayors are calling for 
a Federal trust fund to provide flexible resources for the deployment 
of law enforcement personnel, support local innovations, fight domestic 
violence, and fund technology that helps fight crime. Specifically, 
funding for COPS and the local block grant should be restored, and 
mayors fully support strong accountability standards tied to these 
grants. In addition, resources are needed to help promote crime 
prevention and provide positive alternatives for youth, and address the 
need to provide alternatives for the more than 600,000 ex-offenders who 
are coming back into cities each year.
3. Community Development Block Grants (Successful Results, Threatened, 
        Double Resources)
    For 32 years, the Community Development Block Grant program has 
served as a vital resource to help cities, counties, and States meet 
their unique community development, affordable housing, and economic 
development needs. Since its enactment in 1974, the program has been, 
and continues to be, a critical affordable housing and neighborhood 
revitalization tool for communities. While providing essential services 
to citizens nationwide, CDBG also improves local economies. According 
to HUD, in fiscal year 2004 alone, CDBG provided funds for thousands of 
activities, assisting over 23 million persons and households. CDBG 
funds a broad spectrum of activities, including: expanding 
homeownership opportunities, elimination of slums and blight, improved 
infrastructure such as roads, water and sewer systems, libraries, fire 
stations, community centers, adult day care and after school care for 
children, homeless facilities, employment training, transportation 
services, crime awareness, business and job creation. In fact, 
according to HUD, more than 78,000 jobs were created by CDBG in fiscal 
year 2004 alone.
    But over the last several years, CDBG formula grants have been 
significantly reduced. The program was also targeted for elimination at 
HUD, and transferred to the Department of Commerce along with 17 other 
programs at a greatly reduced funding level. In fiscal year 2006, the 
program was cut by 10 percent, and in fiscal year 2005, the cut was 5 
percent, resulting in a 15 percent cut in 2 years. A survey released in 
March, 2006, by the Conference of Mayors and 20 other organizations 
found that the reduced formula allocations has had a substantial 
negative effect on entitlement communities and States.
    The Nation's mayors recommend that CDBG formula funding be doubled 
to $8 billion. This additional funding would address the delayed 
projects and activities which have come about because of cuts to CDBG, 
and further build on the proven record of an effective affordable 
housing and revitalization program.
4. Affordable Housing Fund
    Last October, the House passed H.R. 1461, the ``Federal Housing 
Finance Reform Act of 2006,'' creating a strong, world-class regulator 
for the Government Sponsored Enterprises (GSEs), Fannie Mae and Freddie 
Mac. The legislation would also create a new affordable housing fund 
with the GSEs contributing initially 3.5 percent increasing to 5 
percent of their after-tax earnings for projects in underserved areas.
    The Nation's mayors support an affordable housing fund to be 
administered by the GSEs, (not by HUD or State housing agencies) funded 
by at least 5 percent of their profits, with local government projects 
eligible to be assisted.
5. Public Housing
Operating Subsidies
    On December 28, HUD sent a memo to public housing agencies 
informing them that they would have to operate with 76 cents for every 
dollar needed for their operations. This memo, announcing a 24 percent 
cut, did not take into account an already existing problem: HUD's 
budget request was $300 million or more below what the public housing 
agencies actually needed. When the Continuing Resolution expires on 
February 15, the situation could actually get worse with Congress 
holding spending to the fiscal year 2006 level. This would result in an 
even lower funding level for operating subsidies.
    The Nation's mayors support restoration of all public housing 
operating subsidies in fiscal year 2007, including funding that was not 
part of the budget request but that is now needed because of utility 
costs previously not anticipated.
HOPE VI
    HOPE VI for severely distressed public housing has been targeted 
for elimination over the past several years, but has survived through 
nominal congressional appropriations. The Nation's mayors support the 
restoration of HOPE VI to a funding level that returns the program to 
an effective national tool for public housing development.
6. Infrastructure Tax Incentives and Bonds (Transportation, Water, 
        Wastewater, Brownfields, Energy, Telecommunications, Schools, 
        Affordable Housing)
    Congested highways, crowded schools, transit demand exceeding 
resources, aging water facilities, and a crumbling energy 
infrastructure are urgent reminders of the infrastructure crisis that 
is jeopardizing America's prosperity. From transit to energy, this 
critical infrastructure has been neglected for far too long by the 
Federal Government and it is now deteriorating at an alarming rate. 
And, according to the American Society of Civil Engineers' 2005 Report 
Card for America's Infrastructure, the Nation's overall infrastructure 
received a D grade with the Report Card calling for $1.6 trillion to 
alleviate our Nation's infrastructure needs.
    To address this growing infrastructure threat, the Nation's mayors 
are calling for tax incentives, bonds, and other measures to support 
local and State efforts, and stimulate private sector participation, to 
improve infrastructure including transportation, water, wastewater, 
brownfields, energy, telecommunications, schools, and affordable 
housing options in America's cities. These tax incentives and bonds 
would help create hundreds of thousands of family-wage jobs and 
revitalize our critical infrastructure across the country at the same 
time.
7. Competitive Workforce
     In this time of global competition, America's economic health 
depends on the development of a skilled workforce with the knowledge 
and ability to adapt to an ever-changing economy. Baby boomers are 
retiring at increasing rates, and the next generation of workers does 
not have the required post-secondary degree attainment nor the 
necessary technical skills to replace them. More importantly, and more 
alarmingly, our emerging workforce is increasingly disconnected from 
educational pathways and the world of work. High school dropout rates 
in some cities are as high as 50 percent, and the youth unemployment 
rate is at its highest level in decades.
    The U.S. Conference of Mayors believes that it is crucial to 
support a sustained commitment to local workforce development programs 
that produce measurable results to ensure our continued competitiveness 
in the 21st century global economy. As such, the Nation's mayors call 
for timely reauthorization of the Workforce Investment Act, and full 
funding of its programs to ensure a significant investment in lifelong 
learning for every American citizen. In addition, resources are needed 
to help train and provide employment opportunities for the more than 
600,000 ex-offenders who are coming back into cities every year.
8. Children and Youth
No Child Left Behind
    Mayors know that better schools make better cities. As they work to 
more effectively align city policies and programs that affect children 
and families, mayors are taking on an increasingly stronger leadership 
role on issues related to public schools. As such, it is critical that 
mayors be involved in every aspect of No Child Left Behind 
reauthorization, including discussions on full funding, teacher 
quality, performance standards, testing and evaluation, and methods of 
assessment and accountability.
Children's Health Insurance
    Mayors recognize that student achievement is inextricably linked to 
early childhood programs, health and nutrition, social service supports 
and parental involvement. As such, it is crucial that funding for 
programs such as Head Start, Early Head Start, the State Children's 
Health Insurance Program (SCHIP) be increased to their full 
authorization levels.
Summer Youth
    And, to further address these issues, the Nation's mayors are 
calling for a new summer youth employment initiative to provide funding 
directly to cities and urban counties for programs that 1) offer 
educational work experiences that provide linkage between job skills 
and classroom learning standards; 2) provide skills training and 
education strategies to young people as part of a local workforce 
development system that aligns with the labor market demands of local 
economies; and 3) establish opportunities for skills development and 
career exposure to young people.
After-School Youth
    Mayors also call for an increased funding commitment directly 
allocated to cities for quality after-school programs. Most 
specifically, it is crucial to strengthen and fully fund the 21st 
Century Learning Centers and other after-school programming.
9. Homeland Security (9/11 Commission Recommendations Not Completed)
    While significant progress has been made on homeland security since 
9/11, more can and should be done to make sure that our Nation's first 
responders are prepared to prevent, respond and recover from either 
attacks or natural disasters. We must continue the emphasis on key 
issues related to airport, port, rail, transit, and border security.
Interoperable Communications
    First, a major concern is the limited funding to assist cities and 
their first responders to achieve full communications interoperability. 
The Office of Management and Budget estimated interoperability 
solutions would cost more than $15 billion, but since 2003, the 
Department of Homeland Security has only awarded $2.9 billion in 
funding for State and local interoperable communications efforts. The 
Nation's mayors are calling on a well-funded, stand-alone, Federal 
emergency communications grant program to carry out initiatives to 
improve interoperable communications, including flexible direct grants 
to cities and their first responders.
Transit Security
    Second, with more than 7.8 billion trips taken on public transit in 
the first 9 months of 2006, securing this critical infrastructure and 
protecting riders from terrorist attacks must be a major priority. 
Congress has allocated only $386 million to transit security through 
Fiscal Year 2006, yet according to the American Public Transportation 
Association, transit agencies have identified $6 billion in security 
needs. The Nation's mayors are calling for a flexible Federal transit 
security initiative to improve security in the areas of communications, 
surveillance, detection systems, personnel, and training. As we have 
done with aviation, securing public transit is a Federal responsibility 
and should not require a local or State match. Furthermore, security 
funds should go directly to the operator of that system or the 
jurisdiction providing the security.
Funding Mechanism
    Third, we must continue to make improvements in the grant 
application process and delivery mechanism for Federal Homeland 
Security resources to make sure that the process is user friendly, the 
funding quickly reaches cities, and that funding is flexible to meet 
local needs.
10. Unfunded Mandates/Preemptions
    The passage of the Unfunded Mandates Reform Act of 1995 was a 
positive step toward restricting the ability of Congress to impose new, 
costly unfunded mandates on State and local governments, or preempt 
their ability to fund critical local programs. However, the issue of 
unfunded Federal mandates remains a major problem. For example, Members 
of Congress continue to propose legislation that would preempt local 
governments in areas such as internet access fee collection and 
wireless telecommunications services.
    Therefore, mayors call for new legislation to strengthen the 
Federal-local partnership and further restrict the ability of Congress 
to impose unfunded Federal mandates or preempt local authority.

                               EXHIBIT B

                 The United States Conference of Mayors

  2005 National Action Plan on Safety and Security in America's Cities

                      (Working Paper of 10/24/05)

Overview
    One month after the attacks of September 11, 2001, The United 
States Conference of Mayors brought together mayors, police chiefs, 
fire chiefs, and emergency services/health care leaders for a Summit in 
Washington, DC. That Summit resulted in the release of A National 
Action Plan for Safety and Security in America's Cities focused on 
transportation security, emergency preparedness and Federal-local law 
enforcement--which has guided the Conference of Mayors' advocacy 
efforts for the last 4 years.
    Upon assuming the Presidency of The U.S. Conference of Mayors in 
June of 2005, Long Beach Mayor Beverly O'Neill charged the Conference's 
relevant standing committees and task forces--including the Criminal 
and Social Justice Committee, the Transportation and Communications 
Committee, the Homeland Security Task Force, and the Mayors and Police 
Chiefs Task Force--to review the progress that has been made on the 
National Action Plan and make recommendation on needed refinements and 
new priorities.
    This effort became more urgent following Hurricanes Katrina and 
Rita that devastated cities in Louisiana, Mississippi, Alabama, and 
then Texas. As Mayor O'Neill and the Conference learned firsthand 
during a mission to the New Orleans/Baton Rouge/Gulf Coast area on 
September 15-16 to meet with New Orleans Mayor Ray Nagin and dozens of 
other impacted mayors, additional changes are needed in the Federal-
local partnership on disaster preparedness and response.
    The discussion on these updated priorities began on September 23-24 
during the Conference's Fall Leadership Meeting in Long Beach, and 
culminated in an emergency meeting in Washington, DC, on October 23-24 
of key mayors and local public safety personnel. Following are key 
recommendations and priorities that have emerged from these discussions 
in five areas:

    I. Fixing the FEMA Disaster Response System
    II. Military Involvement in Disaster Response and Recovery
    III. Communications Interoperability
    IV. Enhanced Transportation Security
    V. First Responder Funding--A Better Distribution System Is Needed

    These recommendations will be carried to Congress and the 
Administration, and will be further discussed and refined during the 
74th Winter Meeting of The U.S. Conference of Mayors to be held in 
Washington, DC, on January 25-27, 2006.

I. Fixing the FEMA Disaster Response System

    Mayors and local police, fire and emergency medical services 
personnel are America's true first responders to any disaster, whether 
natural or man-made.
    Mayoral concerns with the state control on homeland security and 
disaster preparedness and response relate to what mayors experienced 
during Hurricanes Katrina and Rita.
    Mayors recognize the important role of FEMA, the states, and the 
National Guard in responding to disasters. But as the Conference of 
Mayors learned from its mission to the Gulf Coast area following 
Hurricane Katrina, the fact is that aid did not come in time.
    For example, in the early days of response to Hurricane Katrina, 
mayors were told by DHS that all offers of assistance to the impacted 
area had to be made through their states, and that these offers would 
then be coordinated through the Emergency Management Assistance 
Compact, or EMAC, system.
    For some cities this seemed to have worked. But others found this 
system very slow to respond, and were forced to self-deploy first 
responder and other resources to the area. Mayors do not like to watch 
television for days after a disaster and see areas that reporters can 
get to, but seemingly no Federal resources, and then be told that they 
cannot send help.
    Virtually every municipality has entered into ``mutual aid'' or 
``inter-local'' agreements for first responder activities, debris 
removal, etc. However, as was seen with Hurricanes Katrina and Rita, 
such agreements were rendered useless as almost all municipalities in 
the respective target region required full deployment of their 
personnel and assets. What should be explored is the ability of 
municipalities to enter into such ``mutual aid'' agreements with other 
cities/metro areas with geographic dispersion to enable regions to 
provide ``real time'' assistance and aid to the target region.
    In addition to the issue of disaster response, there are many 
questions that continue to be raised by cities regarding disaster 
recovery assistance, such as housing and reimbursement policies. We 
were pleased that Congress recently approved $750 million in loans for 
hurricane hit cities, which was a major priority for our organization 
following our mission to the New Orleans/Baton Rouge/Gulf Coast area. 
However, we were outraged that Congress adopted language that would--
for the first time--prohibit these loans from being forgivable by FEMA, 
even if local conditions necessitate.

Therefore:

  <bullet>  Congress and the Administration should implement a more 
        focused process to work directly with mayors and first 
        responders to review and make changes to the national disaster 
        preparedness and recovery process.
  <bullet>  Congress must reverse its decision to make loans to cities 
        hard hit by Hurricanes Katrina and Rita, under the Disaster 
        Assistance Loan Program, non-forgivable.
  <bullet>  Congress and the Administration should work with The U.S. 
        Conference of Mayors to authorize a mechanism that would allow 
        city-to-city mutual aid agreements to trigger reimbursement 
        procedures and liability protection under the Stafford Act 
        during an emergency.
  <bullet>  The Federal Government should utilize untapped resources 
        through the development of specialized ``go-teams'' to respond 
        to major events who could be the liaisons with local mayors, 
        EMS, police and fire departments (at the executive level) to 
        assist in the response of FEMA and other Federal assets.
  <bullet>  The Federal Government should support funding for training 
        on an all-hazards approach by allowing local jurisdictions the 
        flexibility to quickly adapt and meet local needs, we will be 
        better prepared to respond to natural disasters like Hurricanes 
        Katrina and Rita, as well as terrorist attacks we hope won't 
        come.
  <bullet>  Congress and the Administration must work with mayors to 
        better define Federal reimbursement and other policies related 
        to housing, transportation, and health and human services for 
        evacuees from disasters--and how these policies are coordinated 
        across Federal agencies.

II. Military Involvement in Disaster Response and Recovery

    The use of military armed forces to support civilian response is 
conditioned by certain legal restrictions that define their possible 
activities. The military is precluded, except under certain 
circumstances, from conducting law enforcement operations in civilian 
setting under the Posse Comitatus Act.
    More recently, the Stafford Act has broadened the military's role 
in civil support. Under the Stafford Act, the military may engage in:

  <bullet>  Debris removal and road clearance
  <bullet>  Search and rescue (EMS)
  <bullet>  Sheltering and feeding
  <bullet>  Public information
  <bullet>  Providing advice to local government on disaster and 
        health/safety issues

    Under the Stafford Act the military may not engage in:

  <bullet>  Traffic control
  <bullet>  Security at non-Federal facilities
  <bullet>  Patrolling civilian neighborhoods except to provide 
        humanitarian relief

    Clearly, there are events of a certain nature that require 
immediate military intervention and/or pre-staging. For example:

  <bullet>  The detonation of a nuclear device, such as a suitcase 
        nuclear device, would be expected to render the local and state 
        government incapable of mounting adequate disaster response.
  <bullet>  Widespread biological attack or disease outbreak would 
        require national command and control measures be implemented.
  <bullet>  Mega-catastrophes such as Katrina and Rita that could be 
        reasonably anticipated to overwhelm local and state response 
        capabilities.

     The military can also offer expertise in many areas that support 
disaster relief:

  <bullet>  Ability to mobilize large numbers of self-sufficient 
        personnel.
  <bullet>  Advanced logistical operations support.
  <bullet>  Experience with command and control methodologies just now 
        being implemented at the local level via NIMS.
  <bullet>  Capability to provide mass feeding, water, shelters and 
        other support to disaster victims.
  <bullet>  Easily move across political boundaries.
  <bullet>  Provide specialized equipment and trained personnel to 
        address incidents involving chemical, biological, radiological, 
        nuclear, and explosive (CBRNE) agents.
  <bullet>  Re-establish critical infrastructure including 
        communications and mass care.

     The current legal paradigm is that the military is viewed as the 
``resource of last resort'' deployed to restore order. However, 
Hurricanes Katrina and Rita have given us reason to re-evaluate this 
paradigm. Because of the sheer magnitude of the hurricane events 
recently experienced, and because acts of terrorism may spring up 
during or in the wake of such natural disasters, it is advantageous to 
consider an increased role for the military in disaster response.
    Immediately after a storm occurs is the time when the military is 
most needed, not to take over the duty or responsibility of a mayor or 
a Governor or a county commissioner--not to impose by itself martial 
law or make police power decisions. Those decisions, of course, must 
still be the province of elected officials. But what the military has 
is the skills, the experience, the training, the duty, responsibility 
to help restore order after there has been a disaster, and to marshal 
the equipment, training and manpower to put things back together 
because they have to do that in a time of war.

Therefore:

  <bullet>  The Federal Government should allow for greater military 
        involvement in the immediate response to such overwhelming 
        disasters, at the very least during the first days and weeks of 
        response and when requested by local or state governments.
  <bullet>  Cities need a mechanism to request direct assistance in 
        form of military assets during a major natural disaster or 
        terrorist attack. It is too cumbersome for cities to have to go 
        through the state apparatus.
  <bullet>  The Federal Government should identify a lead military 
        agency to work directly with local governments on the 
        deployment of Federal resources needed immediately prior to and 
        after a disaster.

III. Communications Interoperability

    Major incidents, whether the 9/11 attacks, the Oklahoma City 
bombing, Hurricanes Katrina and Rita, or tornadoes or floods, 
repeatedly show the criticality of first responder communications.
Interoperable Communications
    A major concern related to communications interoperability is the 
limited access to spectrum for public safety. The limited availability 
of spectrum continues to force first responders to operate on several 
different and incompatible and congested voice channels. This continues 
to be identified by mayors and their first responders as an obstacle to 
achieving full interoperability--as identified in the Conference's 2004 
Interoperable Communications Survey of 192 cities.
    For example, in our survey:

  <bullet>  Of the cities with a major chemical plant, 97 percent 
        reported that they did not have interoperable capability 
        between the chemical plant, police, fire and emergency medical 
        services.
  <bullet>  60 percent of the cities reported that they did not have 
        interoperable capability with state emergency operations 
        centers.
  <bullet>  75 percent of the cities said that limited funding was 
        preventing achieving full interoperable capability.

    It is essential to have access to this spectrum to enable 
deployment of advanced mobile technologies such as images and video to 
police, fire and other emergency responders. A major barrier to public 
safety interoperability is cost. The Office of Management and Budget 
(OMB) estimated interoperability solutions would cost more than $15 
billion.
    According to the Conference's 2004 survey on interoperable 
communications:

  <bullet>  Cities under 100,000 reported an average of $4.7 million in 
        funding is needed to achieve full interoperability.
  <bullet>  Cities of 100,001 to 400,000 require approximately $5.4 
        million to achieve full interoperability.
  <bullet>  Cities over 400,001 reported an average of $30 million is 
        needed to achieve full interoperability.

Therefore:

  <bullet>  Congress must make expansion of the communications spectrum 
        for public safety a Congressional priority by establishing a 
        firm date for the transition of analog broadcast to digital as 
        close to December 31, 2006, as possible.
  <bullet>  Congress should provide urgent funding to assist cities and 
        their first responders achieve full interoperability.
  <bullet>  Congress and the Administration should require cellular, 
        VOIP and other advance telecommunications to provide 911, 
        reverse 911 (preemptive) and other emergency communications.
  <bullet>  Congress and the Administration should provide the funding 
        and infrastructure support for emergency first responder 
        redundant telecommunications systems.
  <bullet>  Congress and the Administration should work with the 
        military to provide redundant telecommunications communications 
        systems for first responders during emergencies.
3-1-1 Communications
    The U.S. Conference of Mayors recognized in December 2001 in ``A 
National Action Plan for Safety and Security in America's Cities'' that 
in the event of a terrorist attack using weapons of mass destruction a 
city's 9-1-1 system could be quickly overwhelmed and, therefore, 3-1-1 
systems should be put in place to handle the large volumes of incoming 
calls from citizens.
    The Department of Homeland Security's Authorized Equipment List 
currently includes under the Terrorism Incident Prevention Equipment 
category items such as data collection and information gathering 
software, alert/notification systems and hardware/software that allow 
for information exchange and dissemination; and under the Interoperable 
Communications Equipment category includes public notification and 
warning systems and computer-aided dispatch systems; and under the 
Information Technology category includes tracking and accountability 
systems.
    3-1-1 systems can facilitate post-incident recovery efforts by 
tracking damage assessment and providing a detailed accounting of 
clean-up efforts that is required for Federal or state assistance. 
Unfortunately, DHS recently ruled in a letter to the Conference of 
Mayors that 3-1-1 systems are not eligible under first responder 
funding because, ``they are not specifically devoted to non-emergency 
situations and are not related to the inherent homeland security 
mission of the Department of Homeland Security.'' However, mayors 
strongly believe that dual use of homeland security equipment is 
essential for homeland security and fiscal responsibility.

Therefore:

  <bullet>  Congress and the Administration must clarify that 3-1-1 
        systems are an allowable cost under its homeland security grant 
        programs and to make explicit reference to 3-1-1 systems in the 
        Authorized Equipment List.
IV. Enhanced Transportation Security

Public Transportation: Bus and Rail
    With more than 9.6 billion trips logged on the Nation's public 
transportation systems in 2004, securing this critical infrastructure 
and protecting riders from potential terrorist attacks rank as a high 
priority.
    Despite the fact that Americans use public transportation 32 
million times each weekday, and with the growing number of terror 
attacks on bus and rail systems worldwide, such as the attacks this 
summer in London killing more than 50, and last year in Madrid killing 
191 and Moscow killing 41, since 9/11, bus and rail public 
transportation have received only $400 million in Federal security 
grants. By contrast, in 2004, transit agencies identified $6 billion in 
security needs, including $5.2 billion in capital and $800 million in 
operating.

Therefore:

  <bullet>  Congress and the Administration should fund deployment of 
        security and communications technologies including:

          <bullet>  Voice and video interoperable communication 
        systems;
          <bullet>  Security cameras onboard public transportation 
        vehicles and in bus and rail stations;
          <bullet>  Video surveillance and threat detection cameras;
          <bullet>  Increased surveillance via closed circuit TV; and
          <bullet>  Automated bus and rail locator systems.

  <bullet>  Congress and the Administration should fund security 
        infrastructure expansion, modernization and rehabilitation 
        including:

          <bullet>  Permanent chemical, biological and explosive 
        detection systems;
          <bullet>  Fencing and barriers, lighting, alarms and access 
        control for tunnels, bridges, interlockings, track, yards, and 
        facilities;
          <bullet>  Redesign of infrastructure to eliminate hiding 
        places; and
          <bullet>  The life safety program in New York City and to 
        rehabilitate existing Baltimore and Washington, DC, tunnels.

  <bullet>  Congress and the Administration should clarify that Federal 
        public transportation security funding can be used for extra 
        personnel during heightened alert levels, payment for overtime 
        costs, reassignment of law enforcement officers and increased 
        training for security personnel.
  <bullet>  Congress and the Administration should provide flexible 
        funding of at least $6 billion, $2 billion per year over a 3-
        year period, to safeguard the nation's bus and rail critical 
        infrastructure.
Port Security
    Not enough is being done about security at our Nation's ports. 
Ports remain exposed to large-scale acts of terrorism, including 
weapons of mass destruction or other dangerous materials. For example, 
according to the Government Accountability Office in a May 2005 report, 
only 17.5 percent of containers deemed ``high risks'' were being 
inspected.
    A terrorist act involving chemical, biological, radiological, or 
nuclear weapons at one of these seaports could result in extensive loss 
of lives, property, and business; affect the operations of harbors and 
the transportation infrastructure (bridges, railroads, and highways) 
within the port limits; cause extensive environmental damage; and 
disrupt the free flow of trade. Port security remains largely under-
funded at the Federal level. Since 2002, the Department of Homeland 
Security Port Security Grant Program has provided $882 million for 
seaports. In contrast, the U.S. Coast Guard has estimated that ports 
would have to spend $5.4 billion over 10 years to meet Federal mandated 
port security enhancements. That's on top of the more than $3 billion 
ports have to spend already annually on infrastructure improvements and 
operations, maintenance and personnel expenses just to keep pace with 
world trade.

Therefore:

  <bullet>  Congress and the Administration should provide full and 
        flexible funding for port security needs including:

          <bullet>  Improvised Explosive Device (IED) Detection and 
        Prevention Systems;
          <bullet>  Video Surveillance and Threat Detection Cameras;
          <bullet>  Fiber Optic Communications Connectivity;
          <bullet>  Access control communications;
          <bullet>  Command and control facilities; and
          <bullet>  Personnel and detection dogs for screening and 
        checking cargo and passengers.

  <bullet>  Congress and the Administration should provide a Federal 
        funding mechanism to sustain the significant annual operating 
        costs for the reoccurring maintenance of the new security 
        systems and security personnel salaries that have not yet been 
        identified.
  <bullet>  Congress and the Administration should direct the 
        Department of Homeland Security to issue Letters of Intent for 
        multi-year funding to ports with plans to carry out long-term 
        security improvements.
Freight Rail
    Each day hundreds of thousands of shipments of extremely hazardous 
materials such as chlorine, ammonia, phosphoric acid, and molten sulfur 
travel through the hearts of our cities and near critical 
infrastructure. A major break of a single tanker of hazardous materials 
can result in mass casualties.
    The U.S. Conference of Mayors supports advance notification for 
hazardous freight rail. Mayors recognize that there are sensitive 
issues that need to be addressed, such as concern that terrorists might 
also mistakenly gain access to such information, and the freight rail 
carriers are apprehensive about sharing their client's proprietary 
commercial information. We want to work with Congress and the 
Administration to address these issues so a system of advance 
notification can be implemented.

Therefore:

  <bullet>  Congress and the Administration should direct the U.S. 
        Department of Homeland Security and the U.S. Department of 
        Transportation to conduct an assessment of freight railroad 
        notification procedures for the transport of hazardous 
        materials through local jurisdictions.
  <bullet>  Congress and the Administration should direct the U.S. 
        Department of Homeland Security and the U.S. Department of 
        Transportation to establish a coordinated system for notifying 
        appropriate local first responders of the transportation of 
        rail hazardous materials through local jurisdictions, including 
        a rail carrier's comprehensive list of all hazardous materials 
        scheduled to be transported.
  <bullet>  Congress and the Administration should direct the U.S. 
        Department of Homeland Security and the U.S. Department of 
        Transportation to work with railroad operators to increase 
        physical security measures surrounding shipments and storage of 
        hazardous materials, with such increases to include the number 
        of hazardous materials inspectors employed by the Federal 
        Railroad Administration, lighting fencing, alarms and access 
        control for tunnels, bridges, interlockings, tracks, yards, and 
        facilities.
Airport Security
    Mandated to screen all checked baggage using explosive detection 
systems at airports by December 31, 2003, the Transportation Security 
Administration (TSA) deployed two types of screening equipment: 
explosives detection systems (EDS), which use computer-aided tomography 
X-rays to recognize the characteristics of explosives, and explosives 
trace detection (ETD) systems, which use chemical analysis to detect 
traces of explosive material vapors or residues.
    TSA has made substantial progress in installing EDS and ETD systems 
at the nation's more than 400 airports to provide the capability to 
screen all checked baggage using explosive detection systems, as 
mandated by Congress. However, in initially deploying EDS and ETD 
equipment, TSA placed standalone ETD and the minivan-sized EDS 
machines--mainly in airport lobbies--that were not integrated in line 
with airport baggage conveyor systems. TSA officials stated that the 
agency's ability to initially install in-line systems was limited 
because of the high costs.
Therefore:

  <bullet>  Congress and the Administration should significantly 
        increase funding and reimburse airports at the statutorily 
        authorized Federal share for in-line baggage and cargo 
        screening system and airport facility expansion to accommodate 
        in-line systems to streamline airport and TSA operations, 
        reduce screening costs, and enhance security.
  <bullet>  The U.S. Conference of Mayors reaffirms our policy calling 
        for a fully Federalized workforce at points of passenger, 
        baggage, and cargo inspections.
V. First Responder Funding--A Better Distribution System Is Needed
    Since the early days after September 11, 2001, there was serious 
concern that an over-reliance by the Federal Government on a multi-
layered, state-based distribution system for first responder resources 
and training, which then often is further channeled through counties, 
would be slow and result in delays in funding reaching high-threat, 
high-risk population cities.
    Unfortunately, the many surveys the Conference of Mayors conducted 
proved this to be the case. Time and time again, these surveys have 
showed that money was not reaching cities quickly, and when it did 
reach cities, it often came with Federal restrictions and rules that 
made it very difficult to spend on what was needed most, such as 
limitations on the use of overtime.
    By raising concern on this issue through the release of our 
studies, we were able to get support from President George W. Bush and 
former Department of Homeland Security (DHS) Secretary Tom Ridge to 
examine why money was ``stuck'' in many States. The special DHS task 
force created to work on this effort came up with a number of helpful 
recommendations, some of which, like a waiver from the Cash Management 
Act, have been implemented for new funding. Some additional flexibility 
for the use of overtime, especially for the larger cities, has also 
been provided. But the DHS task force was not allowed to even consider 
the issue of direct funding for cities.
    Congress did create a new high-threat urban areas program, called 
UASI (Urban Area Security Initiative), which ensures that some of the 
bigger metro areas get funding, but this funding is still sent through 
the States. And, major changes to the current state-based system still 
have not been made.
    Now, Congress is using the fact that because previous money they 
have appropriated is not being spent fast enough--as mayors predicted--
it is now acceptable to cut funding. Over the last 2 years, funding has 
been cut by more than a billion dollars.
    And, the Administration and Congress have been slashing funding for 
key law enforcement programs like COPS and the local law enforcement 
block grant since 9/11. Their stated argument was that cities would be 
getting funding from Homeland Security, so did not need it for law 
enforcement programs. But, Homeland Security funding cannot be used to 
put officers on the streets like COPS can, and the eyes and ears of 
officers on the streets can be the best defense against acts of 
terrorism.
    Mayors strongly support regional cooperation, and have been working 
across city boundaries to enhance mutual aid agreements and develop new 
concepts such as regional logistics centers for the management and 
deployment of resources. However, mayors believe that a slow, 
complicated, and multi-layered distribution system for Federal 
resources is not necessary, and in fact counterproductive, for 
fostering regional cooperation.

Therefore:

  <bullet>  Congress should increase, not decrease, funding for key 
        first responder grant programs.
  <bullet>  Authorizing legislation should ensure that the waiver of 
        the Cash Management Act, approved by Congress for fiscal years 
        2005 and 2006, is made permanent, and made retroactive for 
        fiscal years prior to 2005.
  <bullet>  Congress and the Administration should support the 
        establishment of regional logistics centers, not only those 
        previously established under the Pre-Positioned Equipment 
        Program within ODP, but also additional capabilities to be 
        established under regional control, to help consolidate State 
        and local assets, provide life-cycle management and maintenance 
        of equipment, allow for easy identification and rapid 
        deployment during an incident, and allow for the sharing of 
        inventories across jurisdictions.
  <bullet>  Congress should work with the Conference of Mayors to make 
        other refinements needed to the first responder program.
  <bullet>  Congress should restore funding for key law enforcement/
        homeland security programs like COPS and the Justice Assistance 
        Grant program, and allow Department of Homeland Security first 
        responder funding to be used for hiring and overtime for 
        police, fire, and EMS personnel.
  <bullet>  Congress should amend the current state-based system for 
        distribution of Federal first responder assistance to provide a 
        significant portion of the funding directly to cities and local 
        areas.

                               EXHIBIT C

        Enhanced Transportation Security: Public Transportation
Whereas, the issue of public transportation security is a 
        vitalcomponent of every community; and
Whereas, public transportation security in the U.S. must be maintained 
        on the rails, highway and waterways; and
Whereas, mayors are owners and/or operators of many of the major public 
        transportation facilities and systems in the Nation and 
        securing these systems and protecting users from potential 
        terrorist activity is a high priority; and
Whereas, with more than 9.7 billion trips logged on the nation's public 
        transportation systems in 2005, with public transportation 
        growing at a faster rate than highway travel, securing this 
        critical infrastructure and protecting riders from potential 
        terrorist attacks rank as high priorities; and
Whereas, despite the fact that public transportation is growing faster 
        than any other mode of transportation, and with growing number 
        of terror attacks on bus and rail systems worldwide, such as 
        the London attacks in 2005 killing more than 50, and in 2004 in 
        Madrid killing 191 and in Moscow killing 41, since 9/11, bus 
        and rail public transportation have received only $545 million 
        in Federal security grants; and
Whereas, by contrast, in 2004, transit agencies identified $6 billion 
        in security needs, including $5.2 billion in capital and $800 
        million in operating; and
Whereas, transit authorities have significant and specific transit 
        security needs:

  <bullet>  Based on the American Public Transportation Association's 
        2003 Infrastructure Database survey, over 2,000 rail stations 
        do not have security cameras;
  <bullet>  According to our 2005 Transit Vehicle Database, 53,000 
        buses, over 5,000 commuter rail cars, and over 10,000 heavy 
        rail cars do not have security cameras;
  <bullet>  Fewer than one-half of all buses have automatic vehicle 
        locator systems (AVLs) that allow dispatchers to know the 
        location of the bus when an emergency occurs;
  <bullet>  Nearly 75 percent of demand response vehicles lack these 
        AVLs;
  <bullet>  Furthermore, no transit system has a permanent biological 
        detection system; and
  <bullet>  Only two transit authorities have a permanent chemical 
        detection system; and

Whereas, public transportation requires state-of-the-art technology 
        (that is currently in the research and development stage) to 
        detect and/or neutralize potential chemical, biological, 
        radiological and/or nuclear attacks at our stations, on board 
        our trains and buses, as well as throughout our nation's mass 
        transit infrastructure; and
Whereas, such technologies must be able to interface with existing 
        technologies and work effectively under the open system that 
        mass transit operates under today; and
Whereas, further, research and development can also address the rising 
        operating costs associated with added security personnel; and
Whereas, an investment in public transportation security programs, 
        resources and infrastructure, provides a direct benefit in 
        preparation and response to natural disasters,
Now, Therefore, Be It Resolved, that The United States Conference of 
        Mayors urges the Administration and Congress to provide at 
        least $560 million in the FY07 Department of Homeland Security 
        Appropriations bill for transit security grants to assist 
        public transportation systems to continue to address the$6 
        billion in security needs identified by transit agencies; and
Be It Further Resolved, that The United States Conference of Mayors 
        urges the Administration and Congress to support a robust and 
        dedicated funding source for transit-related research and 
        development technology; and
Be It Further Resolved, that The United States Conference of Mayors 
        urges the Administration and Congress to fund deployment of 
        security and communications technologies including:

  <bullet>  Voice and video interoperable communication systems;
  <bullet>  Security cameras on board public transportation vehicles 
        and in bus and rail stations;
  <bullet>  Video surveillance and threat detection cameras;
  <bullet>  Increased surveillance via closed circuit TV; and
  <bullet>  Automated bus and rail locator systems; and

Be It Further Resolved, that The United States Conference of Mayors 
        urges the Administration and Congress to fund security 
        infrastructure expansion, modernization and rehabilitation 
        including:

  <bullet>  Permanent chemical, biological, and explosive detection 
        systems;
  <bullet>  Fencing and barriers, lighting, alarms and access control 
        for tunnels, bridges, interlockings, track, yards, and 
        facilities;
  <bullet>  Redesign of infrastructure to eliminate hiding places; and
  <bullet>  The life safety program in New York City and to 
        rehabilitate existing Baltimore and Washington, DC, tunnels.
                                 ______
                                 
                PREPARED STATEMENT OF WILLIAM W. MILLAR
         President, American Public Transportation Association
                            January 18, 2007
    Mr. Chairman, thank you for this opportunity to provide testimony 
to the Senate Committee on Banking, Housing, and Urban Affairs on the 
security and safety of public transportation systems. We appreciate 
your interest in public transportation security, and we look forward to 
working with you.
About APTA
    The American Public Transportation Association (APTA) is a 
nonprofit international association of more than 1,500 public and 
private member organizations including transit systems and commuter 
rail operators; planning, design, construction, and finance firms; 
product and service providers; academic institutions; transit 
associations and state departments of transportation. APTA members 
serve the public interest by providing safe, efficient, and economical 
transit services and products. More than 90 percent of the people using 
public transportation in the United States and Canada are served by 
APTA member systems.
Overview
    Mr. Chairman, public transportation is one of the Nation's critical 
infrastructures. We cannot overemphasize the critical importance of the 
service we provide in communities throughout the country. Americans 
take more than 9.7 billion transit trips each year. People use public 
transportation vehicles over 33 million each weekday. This is more than 
sixteen times the number of daily boardings on the Nation's domestic 
airlines.
    In particular, we want to recognize and thank this committee for 
its leadership in advancing legislation that enhances the Federal role 
in protecting transit users against terrorism. The Banking, Housing, 
and Urban Affairs Committee has unanimously approved transit security 
bills in each of the last two Congresses, both of which also passed the 
Senate unanimously, and its leadership led the successful effort in the 
Senate to amend the port security bill last year to include a transit 
security authorization. We appreciate the Committee's decision to make 
transit security a priority in the new Congress, and the work you have 
done with the Senate Committee on Homeland Security and Governmental 
Affairs and other committees with jurisdiction over homeland security.
    Safety and security are the top priority of the public 
transportation industry. The Government Accountability Office (GAO) 
released a report several years ago which said ``about one-third of 
terrorist attacks worldwide target transportation systems, and transit 
systems are the mode most commonly attacked.'' Transit systems took 
many steps to improve security prior to 9/11 and have significantly 
increased efforts since then. Since September 11, 2001, public transit 
agencies in the United States have spent over $2.5 billion on security 
and emergency preparedness programs, and technology to support these 
programs, from their own budgets with only minimal federal funding. 
Last year's attacks in Mumbai and the previous attacks in London and 
Madrid further highlight the need to strengthen security on public 
transit systems in the United States and to do so without delay. We 
need to do what we can to prevent the kind of attacks that caused more 
than 400 deaths and nearly 3,000 injuries on rail systems in Mumbai, 
London, and Madrid.
    We urge Congress to act decisively. While transit systems are doing 
their part, we need the Federal Government to be a full partner in the 
fight against terrorism. Terrorist attacks against U.S. citizens are 
clearly a Federal responsibility and the Federal Government needs to 
increase spending on transit security. In light of the documented 
needs, we urge Congress to increase Federal support for transit 
security grants to assist transit systems in addressing the $6 billion 
in identified transit security needs. Last year, we asked Congress to 
provide no less than $545 million in the Homeland Security 
Appropriations bill. Funding at that level annually would allow for 
dramatic improvement in security for the Nation's transit users over a 
10-year period. Federal funding for additional security needs should 
provide for both hard and soft costs as described below and be separate 
from investments in the Federal transit capital program.
    We also urge Congress to provide $500,000 to the Department of 
Homeland Security (DHS) so that DHS can in turn provide that amount in 
grant funding to the APTA security standards program which includes 
participation with our Federal partners to assist with the development 
of transit security standards. In addition, we respectfully urge 
Congress to provide $600,000 to maintain the Public Transit Information 
Sharing Analysis Center (ISAC).
    With regard to improving the distribution of funds under the 
existing transit security programs, we recommend that the existing 
process for distributing DHS grants be modified so that funds are made 
directly to transit authorities, rather than through State 
Administrating Agencies (SAA). We believe direct funding to the transit 
agencies would be quicker and cheaper. The current process and grant 
approval procedures have created significant barriers and time delays 
in getting funds into the hands of transit agencies and thus 
productively used.
    As transit security is part of the larger war on terrorism, Federal 
funding for transit security grants should be provided with no state or 
local match requirement. The requirement of a local or state match 
would have detrimental consequences that would create a scenario of 
disparity that ensures stronger security only to regions with available 
local funding. A local match would require the approval of a local 
governing body. This approval would not be possible to obtain under the 
current DHS transit security structure, which does not allow transit 
providers to anticipate their funding levels or know what projects will 
be funded. Once the project to be funded is identified, the local 
governing body would need to approve funding in an open, public forum, 
where specific project information would be discussed. This would be 
problematic for security sensitive projects.
Background
    In 2004 APTA surveyed its U.S. transit system members to determine 
what actions they needed to take to improve security for their 
customers, employees, and facilities. In response to the survey, 
transit agencies around the country have identified in excess of $6 
billion in transit security investment needs. State and local 
governments and transit agencies are doing what they can to improve 
security, but it is important that the Federal Government be a full 
partner in the effort to ensure the security of the Nation's transit 
users.
    In FY 2003, $65 million in federal funds was allocated for transit 
systems by DHS for 20 transit systems. In FY 2004, $50 million was 
allocated by DHS for 30 transit systems. In FY 2005, Congress 
specifically appropriated $150 million for transit, passenger and 
freight rail security. Out of the $150 million, transit received $135 
million. In FY 2006, Congress appropriated $150 million. Out of the 
$150 million, transit received $136 million. In FY 2007, Congress 
appropriated $175 million. Out of $175 million, transit is slated to 
receive $163 million. We are very appreciative of these efforts. 
However, in the face of significant needs, more needs to be done.
    It is important to point out that there have been significant 
efforts in support of transit security authorization legislation in the 
Senate. As noted earlier, the Senate in 2004 and 2006 unanimously 
passed legislation that would have provided $3.5 billion over 3 years 
for transit security. That legislation was reported out of this 
Committee, and we very much appreciate the Committee's support in that 
regard. We look forward to working with the Committee on these and 
other issues important to the transit industry.
    Transit authorities have significant and specific transit security 
needs. Based on APTA's 2003 Infrastructure Database survey, over 2,000 
rail stations do not have security cameras. According to our 2005 
Transit Vehicle Database, 53,000 buses, over 5,000 commuter rail cars, 
and over 10,000 heavy rail cars do not have security cameras. Less than 
one-half of all buses have automatic vehicle locator systems (AVLs) 
that allow dispatchers to know the location of the bus if an emergency 
occurs. Nearly 75 percent of demand response vehicles lack these AVLs. 
Furthermore, no transit system has a permanent biological detection 
system. In addition, only two transit authorities have a permanent 
chemical detection system. A more robust partnership with the Federal 
Government could help to better address many of these specific needs.
    We are disappointed that the Administration proposed only $600 
million for a Targeted Infrastructure Protection Program in last year's 
FY 2007 DHS budget proposal, which would fund infrastructure security 
grants for transit, seaports, railways and other facilities. We are 
also disappointed that the Administration failed to include a specific 
line item funding amount for transit security. We look forward to 
working with the Administration and Congress to increase transit 
security funding and better address unmet transit security needs 
throughout the country.
    APTA is a Standards Development Organization (SDO) for the public 
transportation industry. We are now applying our growing expertise in 
standards development to transit industry safety and security, best 
practices, guidelines and standards. We have already begun to initiate 
our efforts for security standards development and we have engaged our 
federal partners from both the DHS and Department of Transportation in 
this process. We look forward to working with the Administration and 
Congress in support of this initiative. Unfortunately, DHS has not 
agreed to provide funding to APTA in this effort. We respectfully urge 
Congress to provide $500,000 to the DHS so that it can in turn provide 
that amount in grant funding to the APTA security standards program 
which includes participation of our Federal partners to assist with the 
development of such standards and practices consistent with what we 
have already seen through the Federal Transit Administration (FTA). Our 
efforts in standards development for commuter rail, rail transit, and 
bus transit operations have been significant and our status as a SDO is 
acknowledged by both the FTA and the Federal Railroad Administration 
(FRA). The FTA and the Transportation Research Board have supported our 
standards initiatives through the provision of grants.
    We also would like to work with Congress and the Department of 
Homeland Security's Directorate of Science and Technology to take a 
leadership role in advancing research and technology development to 
enhance security and emergency preparedness for public transportation.
Information Sharing
    Since the terrorist attacks of September 11, 2001, public transit 
systems across the country have worked very hard to strengthen their 
security plans and procedures. They have also been very active in 
training personnel and conducting drills to test their capacity to 
respond to emergencies. Also, to the extent possible within their 
respective budgets, transit systems have been incrementally hardening 
their facilities through the introduction of additional technologies 
such as surveillance equipment, access control and intrusion detection 
systems. While transit systems have been diligent, they have been 
unable to fully implement programs with the current levels of 
assistance from the Federal Government.
    A vital component of ensuring public transit's ability to prepare 
and respond to critical events is the timely receipt of security 
intelligence in the form of threats, warnings, advisories and access to 
informational resources. Accordingly, in 2003, the American Public 
Transportation Association, supported by Presidential Decision 
Directive #63, established an ISAC for public transit systems 
throughout the United States. A funding grant in the amount of $1.2 
million was provided to APTA by the Federal Transit Administration to 
establish a very successful Public Transit ISAC that operated 24 hours 
a day, 7 days a week, and gathered information from various sources, 
including DHS, and then passed information on to transit systems 
following a careful analysis of that information. However, given that 
the Federal Transit Administration was subsequently unable to access 
security funds, and given the decision of DHS to not fund ISAC 
operations, APTA then had to look for an alternate method of providing 
security intelligence through DHS's newly created Homeland Security 
Information Network (HSIN). APTA continues to work with DHS staff to 
create a useful HSIN application for the transit industry. It is clear, 
however, that while the HSIN may become an effective resource, it does 
not match the 24/7 two-way communication functions provided through the 
Public Transit ISAC. However, we believe that consistent, ongoing and 
reliable funds from Congress should be provided for the Public Transit 
ISAC that has been proven an effective delivery mechanism for security 
intelligence. Therefore, we respectfully urge Congress to provide 
$600,000 to maintain the Public Transit ISAC.
    In addition, APTA's membership includes many major international 
public transportation systems, including the London Underground, Madrid 
Metro, and the Moscow Metro. APTA also has a strong partnership with 
the European-based transportation association, the International Union 
of Public Transport. Through these relationships, APTA has participated 
in a number of special forums in Europe and Asia to give U.S. transit 
agencies the benefit of their experiences and to help address transit 
security both here and abroad.
Cost of Heightened Security
    Following the attacks on London in 2005, APTA was asked to assist 
the Transportation Security Administration (TSA) in conducting a 
teleconference between the TSA and transit officials to discuss transit 
impacts pertaining to both increasing and decreasing the DHS threat 
levels. There is no question that increased threat levels have a 
dramatic impact on budget expenditures of transit systems and extended 
periods pose significant impacts on personnel costs. These costs 
totaled $900,000 per day for U.S. public transit systems or an 
estimated $33.3 million from July 7 to August 12, 2005, during the 
heightened state of ``orange'' for public transportation. This amount 
does not include costs associated with additional efforts by New York, 
New Jersey, and other systems to conduct random searches.
    Many transit systems are also implementing other major programs to 
upgrade security. For example, New York's Metropolitan Transportation 
Authority (NY-MTA) is taking broad and sweeping steps to help ensure 
the safety and security of its transportation systems in what are among 
the most extensive security measures taken by a public transportation 
system to date. NY-MTA will add 1,000 surveillance cameras and 3,000 
motion sensors to its network of subways and commuter rail facilities 
as part of a $212 million security upgrade announced late in 2005 with 
the Lockheed Martin Corporation. In fact, NY-MTA plans to spend over 
$1.1 billion through 2009 on transit security.
Security Investment Needs
    Mr. Chairman, since the awful events of 9/11, the transit industry 
has invested more than $2.5 billion of its own funds for enhanced 
security measures, building on the industry's already considerable 
efforts. At the same time, our industry undertook a comprehensive 
review to determine how we could build upon our existing industry 
security practices. This included a range of activities, which include 
research, best practices, education, information sharing in the 
industry, and surveys. As a result of these efforts we have a better 
understanding of how to create a more secure environment for our riders 
and the most critical security investment needs.
    Our survey of public transportation security identified 
enhancements of at least $5.2 billion in additional capital funding to 
maintain, modernize, and expand transit system security functions to 
meet increased security demands. Over $800 million in increased costs 
for security personnel, training, technical support, and research and 
development have been identified, bringing total additional transit 
security funding needs to more than $6 billion.
    Responding transit agencies were asked to prioritize the uses for 
which they required additional federal investment for security 
improvements. Priority examples of operational improvements include:

  <bullet>  Funding current and additional transit agency and local law 
        enforcement personnel
  <bullet>  Funding for overtime costs and extra security personnel 
        during heightened alert levels
  <bullet>  Training for security personnel
  <bullet>  Joint transit/law enforcement training
  <bullet>  Security planning activities
  <bullet>  Security training for other transit personnel

Priority examples of security capital investment improvements include:

  <bullet>  Radio communications systems
  <bullet>  Security cameras onboard transit vehicles and in transit 
        stations
  <bullet>  Controlling access to transit facilities and secure areas
  <bullet>  Automated vehicle locator systems
  <bullet>  Security fencing around facilities

    Transit agencies with large rail operations also reported a 
priority need for Federal capital funding for intrusion detection 
devices.
    Mr. Chairman, the Department of Homeland Security issued directives 
for the transit industry in May 2004 which would require that transit 
authorities beef up security and to take a series of precautions to set 
the stage for more extensive measures without any Federal funding 
assistance. Transit systems have already carried out many of the 
measures that Transportation Security Administration (TSA) is calling 
for, such as drafting security plans, removing trash bins and setting 
up procedures to deal with suspicious packages. The cost of these 
measures and further diligence taken during times of heightened alert 
is of particular concern to us. We look forward to working with you in 
addressing these issues.
Ongoing Transit Security Programs
    Mr. Chairman, while transit agencies have moved to a heightened 
level of security alertness, the leadership of APTA has been actively 
working with its strategic partners to develop a practical plan to 
address our industry's security and emergency preparedness needs. In 
light of our new realities for security, the APTA Executive Committee 
has established a Security Affairs Steering Committee. This committee 
addresses our security strategic issues and directions for our 
initiatives. This committee will also serve as the mass transit sector 
coordination council that will interface with DHS and other federal 
agencies forming the government coordinating council.
    In partnerships with the Transportation Research Board, APTA 
supported two Transportation Cooperative Research Program (TCRP) Panels 
that identified and initiated specific projects developed to address 
Preparedness/Detection/Response to Incidents and Prevention and 
Mitigation.
    In addition to the TCRP funded efforts, APTA has been instrumental 
in the development of numerous security and emergency preparedness 
tools and resources. Many of these resources were developed in close 
partnership with the FTA and we are presently focused on continuing 
that same level of partnership with various entities within DHS. Also, 
APTA has reached out to other organizations and international 
transportation associations to formally engage in sharing information 
on our respective security programs and to continue efforts that raise 
the bar for safety and security effectiveness.
    APTA has long-established safety audit programs for commuter rail, 
bus, and rail transit operations. Within the scope of these programs 
are specific elements pertaining to Emergency Response Planning and 
Training as well as Security Planning. In keeping with our industry's 
increased emphasis on these areas, the APTA Safety Management Audit 
Programs have been modified to place added attention to these critical 
elements.
Conclusion
    Mr. Chairman, in light of our Nation's heightened security needs 
post 9/11, we believe that increased Federal investment in public 
transportation security by Congress and DHS is critical. The public 
transportation industry has made great strides in transit security 
improvements since 9/11 but much more needs to be done. We need the 
Federal Government increase its support for transit security grants 
that will help transit systems continue to address the $6 billion in 
identified transit security investment needs. We also respectfully urge 
Congress to provide $500,000 to the Department of Homeland Security so 
that DHS can in turn provide that amount in grant funding to the APTA 
security standards program which includes participation of our federal 
partners to assist with the development of transit security standards 
and practices consistent with what we have already seen through the 
FTA. In addition, we respectfully urge Congress to provide $600,000 to 
maintain the Public Transit ISAC.
    We have also found that investment in public transit security 
programs, resources and infrastructures provides a direct benefit in 
preparation and response to natural disasters as well. Again, we 
appreciate the Committee's strong support for transit security in 
recent years. We look forward to building on our cooperative working 
relationship with the Department of Homeland Security and Congress to 
begin to address these needs. We again thank you and the Committee for 
allowing us to provide testimony on these critical issues and look 
forward to working with you on safety and security issues.
                                 ______
                                 
                 PREPARED STATEMENT OF WARREN S. GEORGE
           International President, Amalgamated Transit Union
                            January 18, 2007
    Chairman Dodd, Ranking Member Shelby, and Members of the Committee, 
on behalf of the more than 180,000 members of the Amalgamated Transit 
Union (ATU), I want to thank you for giving me the opportunity to 
testify today on the ATU's priorities and strategies for enhancing 
transit security.
    I applaud this Committee's efforts over the past several years to 
work together, in a bipartisan manner, to address this important issue.
    The ATU is the largest labor union representing public 
transportation employees in the United States and Canada. ATU members 
are bus, van, subway, and light rail operators, clerks, baggage 
handlers, and maintenance employees in urban transit, over-the-road and 
school bus industries, as well as paramedical personnel, ambulance 
operators, clerical personnel, and municipal workers.
    The safety and security of our Nation's public transportation 
systems is of utmost importance to the leadership and members of the 
ATU--in particular, we firmly believe that all transit employees should 
receive training to prepare them to prevent and respond to a terrorist 
or other emergency incident.
    Mass transit, by its very nature, is an attractive target for crime 
and terrorist attacks. It brings masses of people together, is open, 
highly visible and familiar, and when threatened or attacked, it can 
disrupt commerce, instill fear, and bring an entire region to a 
grinding halt.
    The recent examples of the Mumbai, London, Moscow, and Madrid 
bombings--all within the last 3 years--are tragic examples of this 
reality.
    In London we saw the crippling effects that such an attack can have 
on an entire community. When four suicide bombers detonated explosive 
devices in the London Underground and aboard a double-decker bus, 56 
people died and more than 700 people were injured. In addition, the 
entire City of London was paralyzed as citizens were left with no way 
to or from work, and others, including tourists, steered clear of the 
city for fear of additional attacks. A separate failed attempt two 
weeks later similarly stalled normal operations in London and 
surrounding areas.
    A decade earlier, ongoing bombing campaigns directed at the Paris 
Metro resulted in hundreds of casualties; and the release of sarin gas 
in the Tokyo subway system threatened the lives of between 5,000 and 
6,000 people, resulting in 12 deaths and marking the first time 
chemical or biological weapons have been deployed on a large scale by 
terrorists.
    And this isn't just happening in our rail systems. In Israel and 
elsewhere, buses have too often been the unfortunate targets of 
terrorist bombings.
    We would be foolish to think that similar incidents couldn't happen 
on our soil, in our transit systems.
The ATU's Role in Transit Security
    Faced with this reality, the ATU has for years worked to raise the 
awareness of our members and their employers to this danger and to 
advance real, concrete solutions and initiatives to enhance the safety 
and security of the systems operated and maintained by ATU members.
    We strongly believe that the labor community must be a partner in 
any comprehensive effort to address the security threats facing our 
industries. For that reason, we have worked closely with our members, 
the transit and bus industries, the Federal Transit Administration 
(FTA), the Transportation Security Administration (TSA) and elected 
officials at all levels of government, including many members of this 
committee.
    Shortly after September 11, the ATU produced and distributed a 
security training video and pamphlets providing guidance to our members 
on how to prevent, deter, and respond in emergency situations. We also 
conducted a joint labor-management conference on transit security that 
was attended by more than 100 transit agency officials and employees 
from across the United States. We worked with DOT and industry security 
experts to develop Transit Watch, a nationwide safety and security 
awareness program that encourages the active participation and 
vigilance of transit passengers and employees. And we contributed to 
the design, distribution, and promotion of the National Transit 
Institute's security and emergency response training programs for 
frontline transit employees.
    We have also testified numerous times before Congress on this 
issue, including on October 4, 2001, before a subcommittee of this 
committee. We have continuously advocated for increased funding for 
transit security enhancements, and have assisted in developing 
legislation, including legislation introduced by Members of this 
Committee, that would enhance transit security.
The Need for Federal Government Action
    Many transit agencies themselves have also taken admirable steps 
toward securing their operations, but--due in large part to funding 
constraints--they have not gone far enough. The reality is that the 
industry and the ATU can not do this alone. The Federal Government must 
step up to the plate and provide the necessary funding, guidance and 
even mandates to provide the level of security that transit passengers 
and employees deserve.
    The Federal Government has not yet stepped up to the plate.
    More than 2 years ago, Congress directed the Administration to take 
comprehensive steps to address transportation security risks, including 
risks faced by the transit industry. It was not until a little over a 
month ago that President Bush issued an order to Secretary Chertoff to 
draft a plan to address security issues in the transit industry.
    Now is not a time for drafting plans, it is a time for concrete 
action. The Federal Government must provide funding directly to transit 
agencies for security purposes and must ensure that transit employees 
are prepared in the event of an emergency.
    With much of the emphasis on airlines, rail, and port security, no 
sector of our transportation network has been more neglected when it 
comes to security than transit. The deficiency in security funding for 
this industry is staggering. While the industry has estimated the 
actual need to be $6 billion in order to adequately secure the network, 
only a sliver of that has already been provided and the budget requests 
submitted by the Administration have been woefully inadequate.
Security Training for Transit Employees
    In addition to funding, it is the responsibility of the Federal 
Government to ensure that certain necessary steps are taken to enhance 
security.
    Common sense tells us that the single most important thing that we 
can do to increase transit security is to provide each and every 
frontline transit employee--including rail and bus operators, customer 
service personnel and maintenance employees--with security and 
emergency preparedness and response training.
    While we should not abandon research and deployment of new 
technologies, we need to recognize what has been proven to be the most 
cost-effective security measure: employee training.
    In the event of a terrorist attack within a mass transit system, 
the response of employees at the scene within the first few minutes is 
crucial to minimizing the loss of life and to evacuating passengers 
away from the incident. Transit employees are the first on the scene, 
even before police, firefighters, or emergency medical responders. They 
must know what to do in order to save the lives of their passengers and 
themselves.
    During the 1995 sarin gas incident in Tokyo, two transit employees 
unnecessarily lost their lives when they tried to dispose of the agent 
dispersal device themselves, instead of simply evacuating the scene. 
Proper training would have prevented these losses and possibly 
decreased the number of passengers who were exposed to the deadly gas.
    Frontline transit employees are also crucial in preventing attacks. 
They are the eyes and ears of the system and are often the first to 
discover suspicious activities and threats, or the first to receive 
reports from passengers. These employees need to know how to recognize 
security threats and need to know the appropriate protocols to follow 
for reporting and responding to potential threats.
    International security experts confirm that employee training is 
effective and crucial in security efforts. Rafi Ron, former Director of 
Security at Tel-Aviv Ben-Gurion International Airport recently told 
another Senate Committee that behavior pattern ``techniques implemented 
by trained security and non-security personnel have proven to be a 
valuable measure in the detection and prevention of terrorist attacks 
in public facilities.'' Ron went on to observe that ``training provides 
the skills and confidence not only to law enforcement officers . . . 
but also to employees who are present at every point in the system. No 
one is in a better position to recognize irregularities on the ground 
than the people who regularly work there.''
    The Volpe Center likewise recently concluded that ``probably the 
most significant factor in determining whether a transportation 
employee makes a helpful or harmful decision during an emergency is 
training. Trained and alert transportation professionals can make the 
difference between success and disaster. Characteristics such as acting 
responsibly to protect the lives of the public; keeping one's cool and 
keeping passengers calm; contacting emergency assistance authorities 
quickly and reporting the essential details accurately; working 
cooperatively as a member (and sometimes a leader) of a team with a 
common goal--can all be enhanced through proper training.''
    Officials from both FTA and TSA have publicly recognized the need 
for this training. In fact, a list of 17 ``Action Items for Transit 
Agencies,'' jointly-developed by TSA and FTA, includes establishing and 
maintaining a security and emergency training program for all 
employees. And yet little, if anything, is being done to ensure that 
this training is provided.
    While vague press releases and statements from these federal 
agencies and the transit industry claim that employees are being 
trained, this is simply not the reality. I know this because I have 
talked to our members--the ones who are supposedly being trained--and 
they tell me a different story. They are scared--not because they know 
there is a threat, but because they feel out of the information loop. 
They have no idea how to help prevent an incident or what to do if one 
occurs.
    What is most surprising is that many of the members I hear this 
from are employees of transit systems in major cities that are at high 
risk of terrorist attacks. For security reasons, I will not publicly 
disclose the names of those systems.
    Some transit systems, including most recently WMATA here in DC, 
have chosen to train all of their frontline employees, and others are 
making comprehensive efforts to likewise train their employees. We 
applaud these systems for their commitment to security. Unfortunately, 
they are not the majority in the industry.
    In many cases, workers receive at most a piece of paper asking them 
to be ``vigilant'' and to be aware of suspicions persons or packages. 
Other workers have watched a short 10-15 minute video. These materials 
do nothing to prepare a worker for a real security incident.
    In testimony before a House Subcommittee, Chris Kozub, Associate 
Director of Safety and Security at the National Transit Institute 
(NTI), stated that ``a large number of frontline transit employees in 
this country still lack proper training and preparedness for preventing 
and/or responding to incidents.'' By FTA's own numbers, presented in 
testimony before another House Subcommittee last fall, NTI's training 
program--which is funded and developed in coordination with FTA and is 
considered to be the leading security training program in the transit 
industry--has only been provided to less than a quarter of our Nation's 
transit employees. It is significant to point out that the NTI security 
training programs are available to transit agencies free-of-charge.
    Unfortunately, the availability of a free training program and the 
overwhelming evidence of the need for training has not been sufficient 
to convince many transit agencies to provide the necessary training. 
Transit systems continue to resist calls for training because of the 
operating costs to pay employees and to keep the buses and trains 
running during training sessions.
    It is time for the Federal Government to step in and to not only 
provide funding for the operating costs associated with training, but 
to also require all transit systems to train each and every frontline 
transit employee. It is the role of the Federal Government to ensure 
that this happens. Leaving it exclusively to the will of the industry 
is, as experience dictates, not sufficient.
The Public Transportation Terrorism Prevention Act
    I want to applaud the members and leaders of this committee, in 
this Congress and the previous two sessions of Congress, for 
recognizing the need for Federal Government action in this realm. The 
Public Transportation Terrorism Prevention Act, which has twice passed 
this Committee, would go a long way toward addressing the needs of the 
Nation's transit systems and their employees.
    Not only would this legislation provide significant funding 
resources for crucial capital enhancements, such as perimeter 
protection systems, communications equipment, and decontamination 
equipment, but it also recognizes the need for training and would 
provide dedicated funding for necessary frontline employee training, 
drills, and exercises. The ATU is very supportive of these provisions.
    In addition, we appreciate that this legislation would provide 
these grants directly to the transit agencies, as opposed to funneling 
the money through the states. We believe this will allow for more 
effective and efficient use of these much needed funds. Further, we 
strongly support the provisions requiring, as a condition of receiving 
grant funds, that transit agencies identify a security coordinator and 
develop a comprehensive plan for use of the funds.
    I would, at this time, however, urge this committee to go one step 
farther and require, as an additional condition of receiving grant 
funds, that a transit agency provide security and emergency 
preparedness training to all frontline employees, including vehicle 
operators, maintenance personnel, and customer service providers.
    Such a requirement has been included in bills introduced in the 
last Congress by the leadership of the House Transportation and 
Infrastructure Committee and the current leadership of the House 
Homeland Security Committee. We are currently working with the 
leadership on both of these committees to draft new legislation that 
would include a training requirement. It is my understanding that this 
legislation will be introduced in late January or February.
    Significantly, security and emergency preparedness training has 
already been required for workers in other transportation modes 
including, most recently, port and longshore workers and carriers of 
hazardous materials. Legislation introduced and passed last session by 
the Senate Committee on Commerce, Science, and Transportation would 
likewise require training for all rail workers.
    We need to take action now to address the security needs of the 
transit industry--and most importantly to train the workers in this 
industry.
    We urge this Committee to act expeditiously to markup legislation 
that would include the necessary funding and training. Doing so now 
will save lives.
    I thank you again for the opportunity to testify today on behalf of 
the ATU. I can not stress enough how important it is to include the 
input of transportation labor in this discussion. It is our members who 
are on the front lines of this battle and who know best what dangers 
they face everyday on the job. I appreciate your recognition of this 
fact and look forward to working with you to address the important 
issues raised here today.
                                 ______
                                 
              PREPARED STATEMENT OF AURELIO ROJO GARRIDO *
Operational Director, Metro Madrid, and Secretary General, Association 
             of Latin American Metros and Subways (ALAMYS)
                            January 18, 2007

---------------------------------------------------------------------------
    * ``The Security Model of Madrid Metro''--PowerPoint presentation 
retained in Committee files.
---------------------------------------------------------------------------
                                 ______
                                 
                   PREPARED STATEMENT OF TIM O'TOOLE
  Managing Director, London Underground, Transport for London, England
                            January 18, 2007
    I shall provide a brief overview of the London Underground's (LU) 
current performance and its security situation with particular 
reference to July 7, 2005--how we dealt with that incident, how we 
prepared for such an incident, and what we have done since.
    LU has made great strides in the past 4 years. We are carrying 
record numbers of passengers--nearly 4m journeys on 1 day in December 
and well over a billion journeys annually-- and delivering more train 
kilometres than ever before. We are the oldest Underground subway in 
the world, and that distinction is our charm and our burden. We are 
determined to bring the system into the 21st century supporting 
London's continuing growth. As a consequence, the system is undergoing 
the biggest transformation in its history, with a massive rebuilding 
and change programme. Yet customer satisfaction is also at an all time 
high. That is largely down to the professionalism and commitment of 
management and staff, which in turn stems from their training and 
experience.
    It is those factors which were also at the root of the Tube's 
ability to withstand and very rapidly recover from the attacks of July 
7, 2005. Also vital was the multi-agency planning that was put in place 
following September 11 by the U.K. Government, supported by the Mayor 
of London. LU was fully involved in that planning, with a senior 
manager seconded to the London Resilience team since it was 
established, to ensure that the operational realities of a mass 
transport metro system can be properly considered in political and 
investment decisions.
    This team has led work in areas of planning such as evacuation of 
parts of London, response to chemical, biological, and radiological 
attacks, and most visibly has arranged tabletop and live emergency 
exercises to test preparedness for such attacks. The largest of these 
was a weekend exercise at Bank London Underground Station which 
simulated a chemical attack at one of the largest, most complex 
stations on the network. This was a multi-agency exercise which was 
also attended by political leaders. This is in addition to the regular 
exercises that we hold with our own and emergency services staff to 
test our readiness for a wide variety of operational emergency 
situations. The learning from all these exercises played a vital role 
for Underground senior managers in revising training and in their own 
actions on July 7.
    The training that all staff receive is in my view the most 
important factor in dealing with emergency situations. Our ability on 
July 7 to evacuate around a quarter-of-a-million people from the 
network within an hour, without injury, is testimony to that. As is the 
restoration of services by the following morning. Our experience 
teaches us that you must invest in your staff and rely on them; you 
must investigate and invest in technology but do not rely on it. The 
professionalism and competence of our staff made the difference on the 
day.
    In terms of what can be done to secure mass transit systems, we are 
in a very different position to some other forms of transport. One has 
only to buy a ticket to secure largely unrestrained access to the 
public areas of the system--500 trains, 275 stations--along with 
millions of fellow passengers. The phenomenon of the suicide bomber is 
one where conventional responses will not be enough.
    But we have a number of ways of controlling the risk that having an 
open access system creates. CCTV is vital to managing security on the 
Underground. In July 2005 we already had over 6,000 cameras, covering 
nearly all stations and some of our trains. The number is ever 
increasing as part of the transformation of the system, and will reach 
12,000 cameras within 5 years. The quality of the equipment is also 
being upgraded where necessary.
    Work is also in place to monitor areas that are not effectively 
monitored at the moment, such as ventilation shafts, more monitoring of 
car parks and other potential entry points to the network; 6.3 million 
pounds is being spent on such investment.
    The Tube network is policed by a dedicated Transport Police force 
comprising nearly 700 police officers, the numbers having increased 
significantly in recent years thanks to additional funding for the 
force from the Mayor of London.
    Six thousand frontline station staff are deployed across the Tube's 
stations. These staff work either on platforms, at ticket barriers or 
in station control rooms. All trains have a driver in their cab who is 
in contact by radio with a line control centre.
    All LU job applicants have to prove their identity and are subject 
to a level of criminal conviction checks. In this as with other areas 
we strictly adhere to the guidance of the U.K. security services.
    We have, in conjunction with the U.K. government, run trials of 
equipment at a small number of stations to scan and search passengers. 
It remains our view however that screening and checking of all those 
who use the Tube on a daily basis is impracticable. But CCTV and 
policing, together with the vigilance of our own staff, allow us to 
monitor the system closely. Our passengers also have a vital role to 
play, and we have encouraged them through information campaigns to be 
on the look out for, and to report, any suspicious behaviour or 
unattended items.
    Communications between staff, and with the Police, are vital and we 
are now rolling out a new radio communications network for the Tube, 
which will link control centres, trains, stations, and depots, 
replacing the existing systems that are less integrated and which have 
been too prone to failures. The new system is being put into operation 
on each Underground line once it has passed stringent validation, 
operational, and safety checks.
    Although it is worth pointing out, any radio system would be 
unlikely to remain operable at the site of an explosion with a degree 
of force as that experienced on July 7, 2005, in London.
    Since July 7 we have investigated and implemented a number of other 
improvements to our resilience, including better first aid kit 
provision at stations and new safety notices on trains. We have 
reviewed other emergency equipment in conjunction with the emergency 
services and other relevant experts.
    At the core of our resilience strategy is that we constantly work 
in close cooperation with the government, its security services, the 
Police, Fire and Ambulance services, and other agencies and transport 
operators. It is that cooperation and coordination that enables us to 
be aware of and respond to changing circumstances. We know that the 
threat remains high and that we need to do everything we can to combat 
it, and that we need to be ready to deal with another attack. We 
believe our greatest defence comes from our rapid response and 
restoration of service, denying terrorists the chaos and fear that they 
are seeking and thereby discouraging their return.

</pre></body></html>
